ULJrii^
MjPBEMK COuPiT OFTHF. UkUTPH STATES

\Ap\n fs
P*\A ^ on e r
- \r*s-

S\i>Ae

Kn?nrny
P^S^opi^erA

bla
APPEM&1X

f\ ppf oAj >( f\ * The Qp;n mn

A

fttr\ Ai *

App-eoAw

c^T Ao2-<^<> Si/prmp rm/r-l

P?" T\\.g Op;oAfc~i/l of Among ApprnU fou/-) tW 2
C - fyvj fine Auy^

A/ovTm(aer 7# £017, TYftosc.n pi.

A ppfir; A ) y V) ’ SicnWo-c \o& IWflr i n & Tmnscr. pfs^ ?'9s' P’fVft
O
ApprrxAiX

O

F. - F^KiJoif A - Af^vAg^iA

V\iIn (ft~ Di<ecV InAnYmpM

i

\l(?F

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

December 16, 2020

RE:

STATE OF ARIZONA V KEVIN DUNBAR
Arizona Supreme Court No. CR-20-0171-PR
Court of Appeals, Division Two No. 2 CA-CR 18-0064
Pima County Superior Court No. CR2015260-001

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on December 15, 2020,' in regard to the abovereferenced cause:
ORDERED: Petition for Review = DENIED.
Janet Johnson, Clerk
TO:
Michael O'Toole
Alexander M Taber
Robb P Holmes
Jeffrey P Handler
ig

-

IN THE

Arizona Court of Appeals
Division Two

The State of Arizona,
Appellee,
v.
Kevin Dunbar,
Appellant.
No. 2CA-CR 2018-0064
Filed April 29, 2020

Appeal from the Superior Court in Pima County
No. CR20152260001
The Honorable Richard S. Fields, Judge
AFFIRMED IN PART; VACATED IN PART AND REMANDED

COUNSEL
Mark Brnovich, Arizona Attorney General
Joseph T. Maziarz, Chief Counsel
By Alexander M. Taber, Assistant Attorney General, Tucson
Counsel for Appellee
James Fullin, Pima County Legal Defender
By Robb P. Holmes, Assistant Legal Defender, Tucson
Counsel for Appellan t

OPINION
Presiding Judge Eppich authored the opinion of the Court, in which
Judge Espinosa concurred and Judge Eckerstrom specially concurred.

EPPICH, Presiding Judge:

STATE v. DUNBAR
Opinion of the Court
After a jury trial, Kevin Dunbar was convicted of attempted
Hi
first-degree murder, aggravated assault with a deadly weapon,
kidnapping, and possession of a deadly weapon by a prohibited possessor.
He now appeals, contending he was denied the right to self-representation,
insufficient evidence supported his kidnapping conviction, he was entitled
to an in camera review of the victim's mental health records, and the trial
court committed various errors in giving and rejecting certain jury
instructions and at sentencing. We affirm Dunbar's convictions, but vacate
his sentences and remand for resentencing on all counts because counts
one, two, and five were improperly enhanced, counts two and three were
improperly aggravated, and counts one and two were improperly imposed
consecutively.
Factual and Procedural Background
We view the facts in the light most favorable to upholding the
jury's verdicts. See State v. Allen, 235 Ariz. 72, % 2 (App. 2014). Dunbar and
R.W. were dating, and they lived together for a few weeks in R.W.'s
condominium in Tucson. After R.W. ended the relationship and Dunbar
had moved out, he repeatedly continued to contact her. When R.W.
returned from work one day, she saw an unfamiliar car in her apartment
complex. Rather than parking in her normal spot, she backed her car into
a spot on the other side of the parking lot. As R.W. was collecting her
belongings, she noticed Dunbar driving towards her.

H2

After asking Dunbar what he was doing at the complex, R.W.
got back into her car and telephoned 9-1-1. Meanwhile, Dunbar pulled his
car in front of hers, blocking her escape. Dunbar approached the car and
indicated he wanted to talk with R.W. She refused and told him she would
not talk with him until he unblocked her car. Dunbar returned to his car
and moved it slightly, but it continued to block R.W.'s. While Dunbar was
back at his car, R.W. saw him doing something, but was unsure what it was.
Dunbar returned to talk to R.W. and asked if she was mad at him and hated
him; R.W. responded that she did. In response, Dunbar fired a gun multiple
times into R.W.'s car hitting her in the arm, stomach, and thigh. Dunbar
walked away toward his car and then turned around and fired another shot
into the front windshield grazing R.W.'s head. Dunbar left the apartment
complex in his car, which he had rented the day before, and tossed the gun
he had used in a garbage can. The rental car was returned to a self-service
location in Alabama, and the police arrested Dunbar three months later in
New York.

1f3

2

STATE v. DUNBAR
Opinion of the .Court
A grand jury indicted Dunbar for attempted first-degree
14
murder, possession of a deadly weapon by a prohibited possessor,
kidnapping, and two counts of aggravated assault. A jury found him not
guilty of one count of aggravated assault, but convicted him of the
remaining counts. The trial court sentenced him to concurrent and
consecutive terms of imprisonment totaling thirty-seven years, and Dunbar
timely appealed. We have jurisdiction under A.R.S. §§ 13-4031 and 134033(A)(1).
Right to Self-Representation
Before trial, Dunbar elected to represent himself, and the trial
15
court appointed an attorney to act in an advisory capacity after advising
him of the seriousness of the charges and the dangers and disadvantages of
self-representation. Dunbar filed several pretrial motions while representing
himself and was granted multiple continuances to become familiar with his
case and litigate his motions.
At a hearing almost a year after Dunbar elected to represent
himself, his advisory attorney indicated Dunbar might want to be
represented by an attorney. Dunbar agreed but then asked a question about
special actions. ‘ The court accepted the attorney's suggestion to discuss
Dunbar's representation at the next hearing, but asked the attorney to file a
notice beforehand if Dunbar decided to have her represent him. At the next
hearing, the advisory attorney asked Dunbar to clarify, on the record,
whether he wanted her to take over as lead counsel.1 Dunbar indicated he
wanted her to represent him after he received the results of the special
action he had filed. The court warned Dunbar "[w]e can't come to one
hearing and say one thing and then change our mind and come back and
do it differently." The court allowed Dunbar to represent himself, and after
litigating some motions during that hearing, Dunbar claimed his right to
represent himself was being infringed because he "never surrendered [his]

16

1At various times during the proceedings before the trial court the
issue was characterized as to whether advisory counsel would be "lead"
counsel. There being no indication that it was ever contemplated that
Dunbar be represented by more than one attorney, we presume from the
context this was meant to refer to the issue of whether Dunbar would be
represented by counsel or represent himself. See McKaskle v. Wiggins,
465 U.S. 168,183 (1984) (no constitutional right to hybrid representation).

3

STATE v. DUNBAR
Opinion of the Court
Faretta rights."2 The court clarified that Dunbar had previously surrendered
his Faretta rights and then allowed Dunbar to continue to represent himself.
At the start of the next hearing, Dunbar's advisory attorney
indicated it was her understanding that Dunbar wanted her to take over as
lead counsel because,two special actions he had filed had been decided.
After addressing some of Dunbar's concerns, the court appointed the
advisory attorney as lead counsel with no objection from Dunbar. After the
advisory attorney discussed with the court the potential witness list for the
defense, Dunbar interjected and said he had more concerns. The following
exchange then occurred:

V

[The Court]: Okay, well, those are matters that
you'll need to talk with [your attorney] about.
She's now lead counsel.
[Dunbar]: She is not lead counsel.
[The Court]: She is. I assure you, Mr. Dunbar,
that she is.
[Dunbar]: No, I do not render my rights.
[The Court]: Well, two times you've told me
differently.
[Dunbar]: I didn't render my rights.
[The Court]: Okay.

[The Court]: We are about a month away from
trial, Mr. Dunbar, and you have always agreed
that when it comes to trial that you need to have
somebody represent you, have you not?
[Dunbar]: No, I —if I can address my issues. My
issues were not addressed, and certain witness
I will call that she won't. So, I'm not going to
render my rights. That's why I called her
2See Faretta v. California, 422 U.S. 806,817-19 (1975) (criminal defendant
has constitutional right to defend himself).

4

STATE v. DUNBAR
Opinion of the Court
Monday and Friday and let her know that. She
should check her voice mail.
[The Court]:
chambers.

Okay, let me see counsel in

After a brief recess, the court asked Dunbar what his final answer was.
Dunbar said he was "proceeding pro-se," and the court warned him, "I'm
not going to do this dance with you again so you're going to have to live
with your decision." Dunbar replied, "Yeah."
Less than a week later, Dunbar filed a motion, prepared by
the advisory attorney and signed by her and Dunbar, waiving his right to
self-representation and requesting re-appointment of counsel. The motion
stated:
Defendant has decided that he wishes to be
represented by counsel going forward.
As evidenced by his signature below, Mr.
Dunbar understands and agrees to relinquish
his right to represent himself until and through
the trial currently scheduled for November 28,
2017. He further understands and agrees that
the Court may not allow him to reassert his
right to proceed in propria persona between
now and the trial, or allow ' hybrid
representation. Defendant acknowledges that
this decision is not a result of force, threats,
coercion or promises not contained in this
document and that he agrees to be represented
by undersigned counsel knowingly, intelligently
and voluntarily.
The court granted the motion, appointed advisory counsel as lead counsel,
and indicated it would not accept filings other than those filed by the
attorney, including motions Dunbar had personally submitted after filing
his waiver of self-representation.
On the morning of trial, before a jury had been empaneled,
Dunbar attempted to raise another motion on his own behalf. The trial
court told Dunbar it would not consider his pro se motions because he was
represented by counsel. The following exchange occurred:

H9

5

STATE v. DUNBAR
Opinion of the Court
[Dunbar]: I'm represented by counsel?
[The Court]: You're represented by
attorney] now.

[an

[Dunbar]: I didn't put that on record yet.

[The Court]: It is on record, your signature was
included with the motion that I granted as of—
[Dunbar]: Well, I object to that, Your Honor.
[The Court]: Okay, noted. All right.
[Dunbar]: As a matter of fact, I want to go back.
[The Court]: I'm sorry?
[Dunbar]: I want to go back.
[The Court]: No, I'm not going to do that. •
[Dunbar]: Well, I object to proceeding, Your
Honor, my [Faretta] rights are being
surrendered.
[The Court]: Your motions are over, Mr.
Dunbar. All right, you guys ready for the jury?
[Dunbar]: No, I want to go back.
[The Prosecutor]: He wants to go back to the
jail.
[The Court]: You want to go back to the jail
now?
[Dunbar]: I have no place here. My rights are
being forfeited.
[The Court]: Well, if you want to go back to the
jail, I can't stop you. It's not a good idea.

6

STATE v. DUNBAR
Opinion of the Court
[Dunbar]: Well, Your Honor, I'm not being
represented by .. . myself and my rights are
being infringed on or surrendered], it's like I
don't have a say in this process.
After further discussion, Dunbar decided to remain in the courtroom.

po

On appeal, Dunbar argues the trial court committed
structural error by denying his request to represent himself on the morning
of trial. Specifically, Dunbar claims the trial court was required to conduct
a colloquy to ascertain whether he was making a valid waiver of the right
to counsel because his waiver of right to counsel was timely and
unequivocal. The denial of a defendant's motion for self-representation is
reviewed for abuse of discretion, but the erroneous denial of self­
representation at trial is structural error. State v. McLemore, 230 Ariz. 571,
| 15 (App. 2012). In the limited number of cases where structural error
occurs, "we automatically reverse the guilty verdict entered." State v. Ring,
204 Ariz. 534, | 45 (2003).
"The right to counsel under both the United States and
1fll
Arizona Constitutions includes an accused's right to proceed without
counsel and represent himself." State v. Lamar, 205 Ariz. 431, f 22 (2003)
(citing Faretta v. California, 422 U.S. 806, 836 (1975)). To invoke this right, a
defendant must waive his or her right to counsel in a timely and
unequivocal manner. Id. If a defendant makes a timely and unequivocal
request to proceed pro se, the court ordinarily should grant that request if
it finds it knowing, intelligent, and voluntary. State v. Henry, 189 Ariz. 542,
548 (1997). However, the right to self-representation is not unqualified and
"must be balanced against the government's right to a 'fair trial conducted
in a judicious, orderly fashion.'" State v. Boggs, 218 Ariz. 325, ^ 59 (2008)
(quoting State v. De Nistor, 143 Ariz. 407, 413 (1985)).
The state contends Dunbar's request was untimely. But
1112
where, as here, a request for self-representation is made before the jury is
empaneled, it is timely. See State v. Weaver, 244 Ariz. 101, 10 (App. 2018).
And even though in some circumstances a court may deny a timely motion
for self-representation if made for purpose of delay, see State v. Thompson,
190 Ariz. 555, 557 (App. 1997), the record does not support such a finding
here. Dunbar did not ask for a continuance on the morning of trial and the
court did not ask Dunbar's reasons for requesting self-representation to
determine whether the request was in bad faith. See Weaver, 244 Ariz. 101,
f 16 & n.3 (no delay found because trial court did not sufficiently develop

7

STATE v. DUNBAR
Opinion of the Court
record to demonstrate defendant was unprepared to proceed and intended
to delay trial).

1fl3

Next, we consider whether Dunbar's request was unequivocal.
Dunbar contends " [i]t does not matter that [he] previously waived his right
to self-representation because he clearly reasserted it after he changed his
mind."3
H14
The requirement of an unequivocal request serves two
purposes. First, it protects a defendant's right to be represented by counsel
by ensuring a defendant does not inadvertently waive counsel while
thinking aloud about the pros and cons of self-representation. Henry, 189
Ariz. at 548. Second, it "prevents a defendant from 'taking advantage of
the mutual exclusivity of the rights to counsel and self-representation.'" Id.
(quoting Adams v. Carroll, 875 F.2d 1441,1444 (9th Cir. 1989)); see also United
States v. Frazier-El, 204 F.3d 553, 559 (4th Cir. 2000) (unequivocal
requirement prevents a defendant from manipulating the mutual
exclusivity of the rights to counsel and self-representation); United States v..
Turner, 897 F.3d 1084,1104 (9th Cir. 2018) (finding defendant manipulated
the proceedings by vacillating between asserting his right to self­
representation and his right to counsel), cert, denied, 139 S. Ct. 1234 (2019).
Allowing a defendant to proceed pro se on an equivocal request risks
allowing a defendant to later claim that his right to counsel was improperly
denied. Henry, 189 Ariz. at 548. There is "no constitutional rationale for
placing trial courts in a position to be whipsawed by defendants clever
enough to record an equivocal request to proceed without counsel in the
expectation of a guaranteed error no matter which way the trial court
rules." Meeks v. Craven, 482 F.2d 465, 468 (9th Cir. 1973).
H15
Whether a defendant makes an unequivocal request to selfrepresentation when his previous position has persistently vacillated is a
matter of first impression in this state. Other courts have found that a
defendant shifting "back and forth in his position with respect to self­
representation" before the jury is selected may be found to have "forfeited
his right to self-representation by his vacillating positions." See Stockton v.
Commonwealth> 402 S.E.2d 196, 202 (Va. 1991) (quoting United States v.
Bennett, 539 F.2d 45, 51 (10th Cir. 1976)); cf. Turner, 897 F.3d at 1103-05

3Dunbar does not argue that he did not knowingly, intelligently, and
voluntarily waive his right to self-representation through the motion he
filed. He only argues he should be entitled to change his mind.

8

STATE v. DUNBAR
Opinion of the Court
(defendant waived his right to counsel by vacillating between asserting
right to self-representation and right to counsel).
In Stockton, the court held that the defendant forfeited the
right of self-representation because he shifted, his position with respect to
self-representation and his request was a delaying tactic. 402 S.E.2d at 202.
Stockton initially wanted a firm to represent him, then he represented
himself, then he changed his mind and retained the initial firm, and then he
requested to represent himself during jury selection. Id. at 201. Similarly,
in Bennett, the court held that the trial court correctly found that the
defendant "forfeited his right to self-representation by his vacillating
positions which continued until just six days before the case was set for
trial," despite having been warned by the trial court. 539 F.2d at 50-51. The
court held that Bennett's position on self-representation was equivocal and,
thus the trial court could deny self-representation. Id at 51. The decisions
in these cases align with the view that the right to self-representation is less
essential than the right to counsel. See State v. Hanson, 138 Ariz. 296, 300
(App. 1983) ("Self-representation does not further any fair trial interests and
is protected solely out of respect for the defendant's personal autonomy.");
McLemore, 230 Ariz. 571, f 17 (right to counsel, unlike right to proceed
pro se, attaches automatically, is self-executing and persists . until
affirmatively waived); see also. Martinez v. Court of Appeal, 528 U.S. 152,162
(2000) ("[T]he government's interest in ensuring the integrity and efficiency
of the trial at times outweighs the defendant's interest in acting as his own
lawyer."); Frazier-El, 204 F.3d at 559 ("In ambiguous situations created by a
defendant's vacillation or manipulation, we must ascribe a 'constitutional
primacy' to the right to counsel because this right serves both the individual
and collective good, as opposed to only the individual interests served by
protecting the right of self-representation.").

fl6

Here, Dunbar forfeited his right to self-representation
fl7
through his vacillating positions. The trial court warned Dunbar that it was
not going to allow him to continually change his mind—a warning Dunbar
ignored. Less than one month before trial, Dunbar signed the motion
waiving his right to proceed pro se and acknowledging that the court might
not allow him to reassert that right. On the morning of trial, Dunbar denied
having previously waived that right and attempted to reassert it. This
behavior suggests Dunbar was manipulating the judicial proceedings by
vacillating on his stance on self-representation.
Contrary to Dunbar's assertion, nothing in the record
1fl8
suggests that the trial court denied Dunbar's request to represent himself
because his request was untimely. Rather, .the record indicates the court

9

STATE v.DUNBAR
Opinion of the Court
denied the request because of Dunbar's vacillating positions and signed
waiver. Indeed, the court reminded Dunbar of the signed waiver in
denying his request. Considering Dunbar's vacillation and signed waiver,
the trial court was under no obligation to conduct another colloquy with
Dunbar on the day of the trial to see if he could waive his right to counsel
yet again. See Hanson, 138 Ariz. at 300; cf. State v. Russell, 175 Ariz. 529, 532
(App. 1993) (implying a finding of constitutional waiver of right to counsel
despite a lack of colloquy because record as a whole supported waiver of
counsel).
Evidence of Kidnapping

irw

Next, Dunbar argues the state did not present sufficient
evidence to support his kidnapping conviction, and the trial court erred in
denying his motion for directed verdict under Rule 20, Ariz. R. Crim. P. A
court must grant a motion for judgment of acquittal for an offense "if there
is no substantial evidence to support a conviction." "On all such motions,
'the relevant question is whether, after viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt." State
v. West, 226 Ariz. 559, 16 (2011) (quoting State v. Mathers, 165 Ariz. 64, 66
(1990)). We review the sufficiency of evidence to sustain a conviction
de novo. Id. 115.
■

"A person commits kidnapping by knowingly restraining
1120
another person with the intent to ... [ijnflict death, physical injury or a
sexual offense on the victim, or to otherwise aid in the commission of a
felony." A.R.S. § 13-1304(A)(3).4 "'Restrain' means to restrict a person's
movements without consent, without legal authority, and in a manner
which interferes substantially with such person's liberty, by either moving
such person from one place to another or by confining such person." A.R.S.
§ 13-1301(2). "Restraint is without consent if it is accompanied by ...
[pjhysical force, intimidation or deception . . . ." Id.
The evidence at trial was sufficient to sustain Dunbar's
f21
kidnapping conviction here. Dunbar parked his car in front of R.W.'s car,
physically restricting her ability to leave the scene. The victim's response
showed she did not consent to the restraint: in addition to asking Dunbar
to move, she called 9-1-1. While Dunbar contends R.W. was- not
substantially restrained because she could have attempted to maneuver her
4Absent material revision since the relevant date, we cite the current
version of statutes.

10

STATE v. DUNBAR
Opinion of the Court
car around Dunbar's —the spaces surrounding her car were unoccupied —
or fled the scene on foot, this argument is unpersuasive. The fact that R.W.
arguably could have taken extraordinary. measures to escape does not
change the fact that she was .confined. A reasonable jury could conclude
Dunbar's actions substantially interfered with R.W.'s liberty if it concluded
that Dunbar's placement of the car and refusal to move out of the way
compelled R.W. to forgo the protection of her car and the chance to flee on
foot, or navigate around his car. See State v. Dutra, 245 Ariz. 180, H 19
(App. 2018) (finding sufficient evidence of confinement where defendant's
threatening act compelled victim to forgo the chance to flee). And it could
also conclude Dunbar used this confinement with the intent to inflict injury
or aid in his commission of a felony, as it kept R.W. from fleeing before
Dunbar approached her with a gun and shot her multiple times.
Dunbar contends the state improperly argued that two
VI
separate actions constituted kidnapping, the blocking of R.W.'s car and
Dunbar's use of a gun, violating his double jeopardy rights. As the state
points out, however, this argument materially misconstrues the
prosecutor's argument. In closing, the prosecutor only argued Dunbar's
use of the car was the required restraint. He never suggested an alternative
theory of restraint as Dunbar contends.
Discovery
Next, Dunbar argues the trial court abused its discretion and
H23
denied him his due process rights when it refused to grant his request for
R.W.'s medical records. Specifically, Dunbar claims the medical records
were relevant for impeachment and to challenge the victim's identification
of him as her assailant. Dunbar contends " [t]he court should have ordered
an in camera inspection of the medical records to determine whether they
contained exculpatory evidence that Dunbar was entitled to at trial."
Dunbar filed a pretrial motion requesting the court
1124
"subpoena [R.W.'s] mental health records from the state of Pennsylvania,
Maryland, and Arizona and provide a. copy to the defendant for
impeachment of the victim['s] credibility" because R.W. has "a mental
health history that extends over 15 years." In the motion, Dunbar alleged
R.W. had been diagnosed with severe depression and bipolar disorder, had
a family history of schizophrenia, "a history of not taking her medication,
being paranoid and being delusional," and "a history of dishonesty."
Dunbar claimed personal knowledge that R.W. did not take her medication
often and "her mental conditions have her creating illusions" which may
affect her "testimony and identification." At a hearing, the state argued

11

L

STATE v. DUNBAR
Opinion of the Court
Dunbar had not made a showing of a need or relevance for the medical
records and tire state was riot in possession of them. Dunbar argued the
records were relevant for R.W.'s state of mind. The trial court denied the
motion.
Generally,"[a] trial court has broad discretion over discovery
1125.
matters, and we will not disturb its rulings on those matters absent an abuse
of that discretion.'' State v. Kellywood, 246 Ariz. 45, 5 (App. 2018).
However, to the extent a defendant "sets forth a constitutional claim in
which he asserts that the information is necessary to his defense," we will
conduct a de novo review. State v. Connor, 215 Ariz. 553, t 6 (App. 2007).
Under both the federal and Arizona constitutions, a defendant has a due
process right to present a defense, including a right to effective crossexamination of witnesses at trial. State ex rel. Romley v. Superior Court
(Roper), 172 Ariz. 232, 236 (App. 1992) (citing Chambers v. Mississippi,
410 U.S. 284 (1973) (right to present defense) and Davis v. Alaska, 415 U.S.
308 (1974) (right to effective cross-examination)). However, a defendant has
no general constitutional right to pretrial discovery in a criminal- case
" [b]ecause the state is obliged by the constitution, case law, and the rules of
criminal procedure to provide the defense with all exculpatory and other
specified information in its possession." Connor, 215 Ariz. 553, ^ 21; see also'
State v. Tucker, 157 Ariz. 433, 438 (1988) (State is only constitutionally
required "to disclose exculpatory evidence that is material on the issue of
guilt or punishment."). A prosecutor's obligation to disclose information
not directly possessed or controlled by the prosecutor's office or staff is
generally limited to information possessed or controlled by entities who
have participated in the investigation or evaluation of the case. See Ariz. R.
Crim. P. 15.1(f); Kyles v. Whitley, 514 U.S. 419, 437 (1995) (prosecutor has
"duty to learn of any favorable evidence known to the others acting on the
government's behalf in the case").
H26
Nevertheless, consistent with due process, a court may order
additional information not in the possession of the state to be disclosed if
the defendant demonstrates that "the defendant has a substantial need for
the material or information to prepare the defendant's case" and "cannot
obtain the substantial equivalent by other means without undue hardship." .
Ariz. R. Crim. P. 15.1(g)(1). In cases where a defendant requests tire
production of a victim's medical records, their request-will almost
inevitably clash with a victim's rights. See Ariz. Const, art. II, § 2.1(A)(5)
(victim's constitutional right to refuse a discovery request); A.R.S. § 134062(4) (physician-patient privilege); A.R.S. § 32-2085(A) (psychologistpatient privilege). "[W]hen the defendant's constitutional right to due

12

STATE v. DUNBAR
Opinion of the Court
process conflicts with the Victim's Bill of Rights in a direct manner ... then
due process is the superior right." Roper, 172 Ariz. at 236.
Victims may be compelled to produce medical records for
H27
in camera inspection if the defendant shows a "reasonable possibility that
the information sought. . . include[s] information to which [he or] she [is]
entitled as a matter of due process." Kellyioood, 246 Ariz. 45/ f 8 (quoting
Connor, 215 Ariz. 553/ 1fl0).5 However/ in light of the competing
constitutional interests and statutory privileges, "the burden of
demonstrating a 'reasonable possibility' is . not insubstantial, and
necessarily requires more than conclusory assertions or speculation on the
part of the requesting party." See id. ^ 9. Defendants must provide a
"sufficiently specific basis to require that the victim provide medical
records to the trial court for an in camera review." Connor, 215 Ariz. 553,
UK 11, 23 (finding trial court did not deny defendant right to present full
defense when defendant broadly requested complete disclosure of all of the
victim's medical records). A trial court does not abuse, its discretion in
denying a wide-ranging request for the disclosure of the victim's medical
records. See id. K 24 ("The unlimited nature of this request provided a
sufficient basis upon which the trial court could have denied the motion as
presented without abusing its discretion."). In Connor, the defendant asked
for "any and all medical treatment, counseling, psychological and/or
psychiatric records" of the victim to "solidify the Defendant's position that
the decedent was the initial aggressor." Id. 4. We found that the
defendant's request was unlimited in nature because the defendant did not
limit his request to information in the victim's medical records that would
be necessary for his defense. See id. m 23-24.6

sAnother panel of this court recently issued R.S. v. Thompson, 247
Ariz. 575 (App. 2019), imposing a higher burden for defendants to receive
an in camera inspection of medical records. See id. ^ 3 (holding that
defendant must show "substantial probability" that information sought is
necessary when seeking in camera review of privileged information). We
need not address whether this higher burden applies, because Dunbar
cannot meet the lesser showing required by the reasonable possibility test
6Unlike Connor, who did not renew his motion on more specific,
grounds, Dunbar filed a motion for reconsideration, arguably asserting
greater specificity. From the record it does not appear the trial court ruled
on the motion, which had been filed three days before Dunbar signed the
written waiver of his right to self-representation and agreeing to be
represented by counsel. We need not address the court's failure to address
13

STATE v. DUNBAR
Opinion of the Court
Here, Dunbar has not provided a sufficiently specific basis for
H28
requiring R.W. to produce her medical records. Dunbar's request was
nothing more than a conclusory assertion that R. W/s medical records could
contain exculpatory information because Dunbar did not explain how the
broad assertion that R.W. was "delusional" would support his
misidentification defense. More importantly, at trial Dunbar abandoned
his proposed claim of misidentification, instead arguing self-defense. He
has offered no explanation as to how R.W.'s medical records would be
relevant to the issue of whether his actions in shooting her were justified,
and thus they bear no apparent relationship to the defense actually
presented to the jury.

1f29

Furthermore, Dunbar requested all of R.W/s mental health
records spanning over fifteen years from three different states. Dunbar
never alleged or showed that R.W/s medical records were in the state's
possession or control nor identified any specific agency or provider that
treated R.W. Dunbar also did not limit his request to information necessary
for a misidentification defense or that would be material to the victim's
perception or recollection of the events at issue at trial.7 Similar to Connor,
the unlimited nature of Dunbar's request gave the trial court a sufficient
reason to deny the motion without abusing its discretion. See Connor,
215 Ariz. 553, ^ 24. Therefore, the trial court did not err in denying
Dunbar's request for access to R.W.'s medical records.

the motion in any event, in light of Dunbar's failure to raise the issue on
appeal.
7Our specially concurring colleague asserts that we create "a nearly
insurmountable obstacle to securing disclosure," but a defendant who
makes broad requests for a victim's highly personal medical information
must make at least some showing of how the requested evidence, even
crediting the defendant's claims and speculation, would be relevant to his
defense. See State v. SaniUo, 219 Ariz. 431,
19-21 (App. 2008)
(acknowledging defendant's due process discovery rights but upholding
trial court's refusal to order victim to produce medical records "for the
years surrounding the [assault]" where insufficient showing her
medication and counseling information was needed for his theory of
defense); Roper, 172 Ariz. at 239 (requiring disclosure of victim's medical
records if, inter alia, "necessary for impeachment of the victim relevant to
the defense theory").

14

STATE v. DUNBAR
Opinion of the Court
Jury Instructions
Dunbar additionally challenges the trial court's instruction of
1f30
the jury, contending the court erred by giving a flight instruction and
refusing one for attempted provocation manslaughter as a lesser-included
offense of attempted first-degree murder. "A party is entitled to any jury
instruction reasonably supported by the evidence." State v. Burns, 237 Ariz.
1, | 48 (2015). We review a trial court's decision to give or refuse a jury
instruction for abuse of discretion. State v. Solis, 236 Ariz. 285, t 6
(App. 2014) (giving of instruction); State v. Kites, 225 Ariz. 25, 27 (2009)
(refusal of instruction).
"Leaving the scene is considered flight only if the manner of
H31
leaving suggests consciousness of guilt." State v. Hunter, 136 Ariz. 45,48-49
(1983). "The inquiry focuses on 'whether [the defendant] voluntarily
withdrew himself in order to avoid arrest or detention.'" State v. Wilson,
185 Ariz. 254, 257 (App. 1995) (alteration inWilson) (quoting State v. Salazar,
112 Ariz. 355,357 (1975)). Dunbar testified he left the scene because he "got
nervous" after he saw an ambulance coming for R.W. After leaving, he
disposed of the firearm he had used, drove to Alabama—a state outside the
scope of his rental agreement—to return the car he was driving, and then
traveled to New York and remained there until he was tracked down and
apprehended almost three months later. These facts suggest an attempt to
avoid arrest or detention and were sufficient to warrant a flight instruction.
Nor did the court err in declining to instruct the jury on
1f32
attempted provocation manslaughter as a lesser-included offense of
attempted first-degree murder.
A person commits provocation
manslaughter by "committing second degree murder ... upon a sudden
quarrel or heat of passion resulting from adequate provocation by the
victim." A.R.S. § 13-1103(A)(2); see also A.R.S. §§ 13-1001 (attempt), 13-1104
(second-degree murder). "'Adequate provocation' means conduct or
circumstances sufficient to deprive a reasonable person of self-control."
A.R.S. § 13-1101(4). "[W]ords alone are not adequate provocation to justify
reducing an intentional killing to manslaughter." State v. Vickers, 159 Ariz.
532,542(1989).
Dunbar's account of the events leading up to the shooting was
1[33 .
largely consistent with the factual recitation above. But he also testified that
when he went to move his car out of the way of R.W.'s, he "thought" R.W.
had moved her car towards him and had struck his car. He stated he
retrieved the gun and fired at R.W. because he felt she "was trying to hurt
him or jam him in the door," saw her reaching for what he believed to be a

15

STATE v. DUNBAR
Opinion of the Court
gun under her seat, and was "afraid for [his] life." Dunbar's testimony
weighs against issuing an attempted provocation manslaughter instruction
here. By his own account, the decision to fire at R.W. was not borne from a
loss of self-control, but a fear of bodily injury. Although that claim could
support a self-defense instruction—which Dunbar received—it does not
support the instruction he now argues he was entitled to. We see nothing
in the evidence presented that otherwise suggests tihe decision was made
"upon a sudden quarrel or heat of passion resulting from adequate
provocation by the victim." § 13-1103(A)(2). Under these facts, the trial
court did not err in denying Dunbar's requested instruction.
Sentencing
Enhanced Sentences
Dunbar argues his out-of-state convictions did not amount to
H34
a historical prior felony conviction under A.R.S. § 13-105(22), and the trial
court therefore erred in sentencing him as a category two repetitive
offender under A.R.S. § 13-703.
1(35
We review de novo whether a foreign felony conviction
supports an enhanced sentence. See State v. Ceasar, 241 Ariz. 66, 11
(App. 2016). A person shall be sentenced as a category two repetitive
offender if the person "stands convicted of a felony and has one historical
prior felony conviction" or has been "convicted of three or more felony
offenses that were not committed on the same occasion but ... are not
historical prior felony convictions." § 13-703(B).
A historical prior felony conviction generally includes "[a]ny
H36
felony conviction that is a third or more prior felony conviction." A.R.S.
§ 13-105(22)(d). However, "[a] person who has been convicted of a felony
weapons possession violation in any court outside the jurisdiction of this
state that would not be punishable as a felony under the laws of this state
is not subject to [§ 13-105(22)]." § 13-105(22)(f).
In 2012, the comparative element approach applicable to § 131137
703 was abandoned by the legislature for most out-of-state convictions "to
ensure that if a foreign conviction is considered a felony by the jurisdiction
in which the offense was committed, that conviction would be considered
a historical prior felony conviction." State v. Johnson, 240 Ariz. 402, ^ 17
(App. 2016). However, the comparative element approach still applies to a
felony weapons possession violation. See § 13-703(M) ("A person who has
been convicted of a felony weapons possession violation in any court
outside the jurisdiction of this state that would not be punishable as a felony
16

STATE v. DUNBAR
Opinion of the Court
under the laws of this state is not subject to this section/'). The comparative
element approach requires courts to determine that "the foreign conviction
includes 'every element that would be required to prove an enumerated
Arizona offense'" to be punishable. State- v. Crawford, 214 Ariz. 129, K 7
(2007) (quoting State v. Ault, 157 Ariz. 516, ,521 (1988)). "A charging
document or judgment,of conviction may be used only to narrow the
statutory basis of the foreign conviction, not to establish the conduct
underlying it." State v. Moran, 232 Ariz. 528, 16 (App. 2013). If under any
scenario it would have been legally possible for the defendant to have been
convicted of the foreign offense but not the Arizona offense, then the
foreign offense fails the comparative elements test. See id.
Here, the trial court sentenced Dunbar as a category two
repetitive offender for counts one (attempted first-degree murder), two
(possession of a deadly weapon by a prohibited possessor), and five
(kidnapping) based on the belief that Dunbar's three previous convictions
amounted to one prior historical felony conviction under § 13-105(22) (d).
At a presentencing hearing, the trial court found beyond a reasonable doubt
that Dunbar had been convicted of three prior felonies: (1) a 2007 federal
conviction for false reporting; (2) a 2000 New York felony weapon
possession conviction; and (3) a 1993 New York felony weapon possession
conviction. Dunbar's charging documents and judgment of conviction
showed he was convicted of violating New York Penal Law § 265.02(1) for
the felony weapon possession convictions.

1f38

As the state concedes, while both offenses require possession
f39
of a deadly weapon, a person can be convicted of New York Penal Law
g 265.02(1)8 if they had previously been convicted of a misdemeanor, see
New York Penal Law § 10.00(6), whereas in Arizona, a person cannot be
convicted of weapons misconduct unless they had been previously
convicted of a felony, see A.R.S. §§ 13-3102(A)(4), 13-3101(7)(b). We agree.
Since the foreign offenses do not include every element that would be
required to prove an enumerated Arizona offense, the two felony weapon
possession convictions could not be used to enhance Dunbar's sentence
under § 13-105(22)(d). Therefore, we vacate Dunbar's sentences for counts
one, two, and five, and remand for resentencing on those counts.

8The elements of this offense have not materially changed since the
offenses were committed in 1991 and 1998.

17

STATE v. DUNBAR
Opinion of the Court
Aggravated Sentences
140
Dunbar argues the trial court improperly aggravated his
sentences. The trial court sentenced Dunbar to the maximum sentence for
all counts. The court found that the use, threatened use or possession of a
deadly weapon Or dangerous instrument during the commission of the
crimes was inherent in the jury verdicts and then listed various aggravating
factors it considered for each count.
We review de novo whether a particular aggravating factor
141
may be used by a court to aggravate a sentence. State v. Tschilar, 200 Ariz.
427, | 32 (App. 2001). A trial court may impose a maximum prison term
only if one or more statutory aggravating factors are found by the trier of
fact or admitted by the defendant, except that an alleged prior felony
conviction under A.R.S. § 13-701(D)(11) shall be found by the court. § 13701(C). A statutory aggravating factor may also be implicitly found in the
jury's verdict. See State v. Martinez, 210 Ariz. 578, K 21 (2005) ("Under
Arizona's sentencing scheme, once a jury implicitly or explicitly finds one
aggravating factor, a defendant is exposed to a sentencing range that
extends to the maximum punishment.. . ."). Section 13-701 (D) lists twentyseven aggravating factors, including use or possession of a deadly weapon
during the commission of the crime, emotional harm to victim, lying in
wait, prior felony convictions within ten years preceding the offense date,
and the so-called "catch-all" category, which permits consideration of any
other factor that the state alleges is relevant to the defendant's character or
background or to the nature or circumstances of the crime. Once a statutory
aggravating factor is found, the court may find by a preponderance of the
evidence additional aggravating circumstances. See Martinez, 210 Ariz. 578,
H 26. However, a court cannot rely solely on the "catch-all" aggravator to
increase a defendant's statutory maximum sentence because that provision
is "patently vague." See State v. Schmidt, 220 Ariz. 563,
1, 9-10 (2009).
Under Arizona law, the statutory maximum sentence in a case where no
aggravating factors have been proven is the presumptive sentence. Id. U 7.
142
With respect to count three (aggravated assault), the court
found the following aggravating circumstances: prior overall criminal
history, lying in wait, and emotional impact on the victim. As the state
concedes, the jury did not find the lying in wait or emotional harm to the
victim as aggravating circumstances and these aggravators were not
implicit in the verdict or admitted by Dunbar. Therefore, we only need to
determine whether Dunbar's sentence for count three could be aggravated

18

STATE v. DUNBAR
Opinion of the Court
based on his prior felony convictions.9 A prior felony conviction under
§ 13-701(D)(11) qualifies as a statutory aggravating factor if "[t]he
defendant was previously convicted of a felony within the ten years
immediately preceding the date of the offense." A foreign conviction —a
felony conviction committed outside the jurisdiction of this state —is
considered a felony conviction under § 13-701(D)(ll)if that offense would
be punishable as a felony if committed in the state of Arizona. "In order to
determine whether a foreign conviction would be a felony in Arizona, the
test is whether it includes every element that would be required to prove
an enumerated Arizona offense." State v. Inzunza, 234 Ariz. 78, *] 25
(App. 2014) (internal quotations omitted). "This comparative analysis
focuses exclusively on the statutory elements of offenses and any relevant
case law, as opposed to the factual basis of a conviction." Id.

1f43

Although the court found that Dunbar had been convicted of
three felony offenses, only the 2007 federal conviction under 18 U.S.C.
§ 1001 fell within ten years of Dunbar's current offenses. As the state
correctly concedes, a person can be convicted of 18 U.S.C. § 1001(a) for
making a false statement or misrepresentation as long as they intended to
make a false or fraudulent statement, see United States v. Lange, 528 F.2d
1280,1288 (5th Cir. 1976), whereas in Arizona a person cannot be convicted
of a felony offense for making a false statement to law enforcement without
the state proving that defendant intended to "hinder the apprehension,
prosecution, conviction or punishment of another for any felony," see A.R.S.
g 13-2512; see also A.R.S. § 13-2907.01 (knowingly making a false statement
to a state law enforcement agency is a Class 1 misdemeanor). Since the
foreign offense does not include every element that would be required to
prove an enumerated Arizona offense, it was not considered a prior felony
under § 13-701(D)(11). Thus, none of Dunbar's prior felony convictions met
the statutory requirements of § 13-701 (D) (11) and the court therefore erred
in sentencing Dunbar to the maximum sentence for count three.

9 Although the court referred to Dunbar's "prior overall criminal
history" as an aggravating factor, it specifically listed Dunbar's three felony
convictions in the minute entry, suggesting it was considering these
offenses as prior felony convictions under § 13-701(D)(11). See State v.
Bonfiglio, 231 Ariz. 371, ^ 14 (2013) ("A statement that the prior conviction
was a prerequisite for an aggravated sentence, even if the court did not rely
upon it as its reason for aggravating the sentence, will inform the defendant
of the court's rationale for imposing the sentence.").

19

STATE v. DUNBAR
Opinion of the Court
With respect to counts one (attempted first-degree murder)
144
and five (kidnapping), the court found, among other aggravating factors,
use, threatened use, or possession of a deadly weapon. At trial, Dunbar
admitted possessing the gun used during the commission of the offenses.10
See State v. Miranda-Cabrera, 209 Ariz. 220, f 29 (App. 2004) (finding facts
admitted by defendant at.trial constitute facts admitted by the defendant
for sentence aggravation purposes); Ring, 204 Ariz. 534, f 93 ("In cases in
which a defendant stipulates, confesses or admits to facts sufficient to
establish an aggravating circumstance, we will regard that factor as
established."). Therefore, the use and possession of a deadly weapon could
properly be applied as a statutory aggravating factor under § 13-701(D)(2)
to expose Dunbar to a maximum sentence for counts one and five.11
145
With respect to count two (possession of a deadly weapon by
a prohibited possessor), the court found the following aggravating
circumstances: prior overall criminal history and emotional impact on the
victim. As mentioned above, Dunbar's prior felony convictions did not
meet the statutory requirements of § 13-701(D)(11) and the jury did not find
nor was it implicit in the verdict that there was an emotional impact on the
victim. Nor could the court consider the prior convictions under the "catch­
all." See Schmidt, 220 Ariz. 563, 10 ("Use of the catch-all as the sole factor
to increase a defendant's statutory maximum sentence violates due
process."). The court thus erred in sentencing Dunbar to the maximum
sentence for count two.
146
In sum, the court erred in aggravating counts two and three
because there was no statutory aggravating factor found by the jury,
admitted by defendant, or implicit in the verdict. Therefore, Dunbar was

10According to Dunbar, he knew the gun used for the offenses was
in his rental vehicle when he blocked R.W.'s car and he used the gun in selfdefense to protect himself from R.W.
11 After one statutory aggravating factor was found for counts one
and five, the court could consider other aggravating factors upon finding
them by a preponderance of the evidence. See Martinez, 210 Ariz. 578, f 26.
Although none of Dunbar's prior felony convictions met the statutory
requirements of § 13-701(D)(11), these priors could be considered under the
"catch-all" category. See Schmidt, 220 Ariz. 563, Tf 11. The court could also
find by a preponderance of the evidence that there was emotional harm to
the victim and that Dunbar was lying in wait based on the testimony at trial.

20

STATE v. DUNBAR
Opinion of the Court
not eligible for the maximum sentence on those counts and we remand for
resentencing.
Consecutive Sentences
The trial court ordered Dunbar's prison sentence for count
five (kidnapping) to run consecutively to count one (attempted first-degree
murder). His sentence for coimt two (possession of a deadly weapon by a
prohibited possessor) was also ordered to be served consecutively to count
one. Dunbar argues these sentences violate A.R.S. § 13-116, which prohibits
consecutive sentences for offenses arising from a single act.
W

■■

We review de novo a trial court's decision to impose
f48
consecutive sentences under § 13-116. State v. Urquidez, 213 Ariz. 50, 1 6
(App. 2006). "An act or omission . . . made punishable in different ways by
different sections of the laws may be punished under both, but in no event
may sentences be other than concurrent." § 13-116. To determine whether
defendant's conduct constitutes a single act, which requires concurrent
sentences, we apply the three-part test set out in State v. Gordon, 161 Ariz.
308, 315 (1989). See State v. Bush, 244 Ariz. 575, t 90 (2018); State v. Forde,
233 Ariz. 543, If 138 (2014).
First, we "subtract^ from the factual transaction the evidence
149
necessary to convict on the ultimate charge" and if the remaining evidence
satisfies the elements of the other crime, then consecutive sentences may be
permissible. Gordon, 161 Ariz. at 315. The "ultimate charge [is] the one that
is at the essence of the factual nexus and that will often be the most serious
of the charges." Id. Second, we consider whether "it was factually
impossible to commit the ultimate crime without also committing the
secondary crime. If so, then the likelihood will increase that the defendant
committed a single act under [§ 13-116]." Id. Third, we consider "whether
the defendant's conduct in committing the lesser crime caused the victim to
suffer an additional risk of harm beyond that inherent in the ultimate crime.
If so, then ordinarily the court should find that the defendant committed
multiple acts and should receive consecutive sentences." Id.
Here, both parties agree the ultimate crime is attempted firstdegree murder, and the secondary crime is kidnapping, "A person
commits attempt if, acting with the kind of culpability otherwise required
for commission of an offense, such person ... . [intentionally engages in
conduct which would constitute an offense if the attendant circumstances
were as such person believes them to be." § 13-1001(A)(1). "A person
commits first degree murder if.. . [ijntending or knowing that the person's

I50 .

21

STATE v. DUNBAR
Opinion of the Court
conduct will cause death, the person causes the death of another person,
including an unborn child, with premeditation/' g 13-1105(A)(1). "A
person commits kidnapping by knowingly restraining another person with
the intent to . . . [ijnflict death, physical injury or a sexual offense on the
victim, or to otherwise aid in the commission of a felony." § 13-1304(A)(3).
First, if we subtract the evidence necessary to convict Dunbar
for the attempted first-degree murder—intentionally or knowingly
shooting R.W. — the remaining evidence supports the kidnapping charge in
this case. The kidnapping charge required proof that Dunbar restricted
R.W/s movements 'without consent and without legal authority by
confining R.W. with the intent to inflict physical injury. See § 13-1304(A)(3)
(kidnapping); § 13-1301(2) (restraint). Therefore, once Dunbar formed the
intent to inflict physical injury, refused to move his car out of R.W/s path,
and confined R.W., the crime of kidnapping was complete. See State v.
Viramontes, 163 Ariz. 334,33S (1990). Thus, under the first part of the Gordon
test, Dunbar was eligible for consecutive sentences for kidnapping and
attempted first-degree murder.
Second, it was not factually impossible for Dunbar to commit
H52
attempted murder without also committing kidnapping. Dunbar could
have committed the attempted murder without kidnapping R.W. by, for
example, parking next to her and shooting her without any restraint.
Instead, Dunbar parked in front of her and restrained her movements by
blocking her in. Third, Dunbar's act of kidnapping caused R.W. to suffer
an additional risk of emotional harm not inherent to the attempted murder.
Dunbar's restraint of the victim terrorized her to the point she called 9-1-1,
showing that the restraint caused additional harm. Therefore, Dunbar did
not commit a single act within the meaning of § 13-116 and the trial court
did not err by imposing consecutive sentences for count one (attempted
first-degree murder) and count five (kidnapping). See State v. Carlson,
237 Ariz. 381, \ 82 (2015) (holding consecutive sentences for first-degree
murder and kidnapping was proper because it was possible to commit
murder without kidnapping, kidnapping without murder, and the
kidnapping created a risk of emotional and physical harm to victims in
addition to harms caused by murder).
We reject Dunbar's claim that the trial court attempted to
1(53
distinguish Gordon by finding that Dunbar completed two kidnappings.
The court made no such finding and the case Dunbar cites, State v. Jones,
185 Ariz. 403 (App. 1995), is inapposite. In Jones, we found that a defendant
could not be charged with two counts of kidnapping the same victim
because the "continuous confinement of the victim until her escape did not
22

STATE v. DUNBAR
Opinion of the Court
give rise to more than one count of .kidnapping" Id. at 406. Jones is
inapplicable here because Dunbar was not charged with two counts of
kidnapping.
However, we reach a different conclusion regarding the
consecutive sentences for count one (attempted first-degree murder) and
count two (possession of a deadly weapon by ,a prohibited possessor), Even
if we assume that consecutive sentences were permissible under the first
part of Gordon, under the facts of this case, as the state concedes, it was
factually impossible for Dunbar to shoot R.W. without also committing
weapons misconduct because Dunbar is a prohibited possessor and the use
of the gun would necessarily constitute weapons misconduct. See State v.
Carreon, 210 Ariz. 54, 1108 (2005) (finding second part of Gordon not met
because defendant could not have attempted murder without also
committing weapons misconduct). Additionally, R.W. did not suffer any
additional risk of harm from the weapons misconduct beyond that inherent
in the ultimate crime. We therefore instruct the trial court that consecutive
sentences are inappropriate for counts one and two.

H54

Disposition
We affirm Dunbar's convictions but vacate his sentences and
f55
remand for resentencing on all counts because counts one, two, and five
were improperly enhanced and counts two and three were improperly
aggravated. We also find the court erred in ordering counts one and two to
run consecutively.
ECKERSTROM, Judge, specially concurring:
I agree fully with all segments of the majority opinion except
f56
Ivly
colleagues
affirm the trial court's refusal to order disclosure, for
one.
an in camera review, of the victim's mental health records. Our opinion
holds that Dunbar both failed to provide "a sufficiently specific basis" for
seeking disclosure and failed to adequately limit the scope of that request.
Supra If 28.
^|57
I disagree that these were appropriate bases to deny the
request. Although not verbose, Dunbar's pro se pleadings and m-court
argument together articulate the logic for believing exculpatory
information might have been found within the victim's mental health
treatment records. Dunbar maintained, based on his prior history with
R.W., that: (1) she suffers from major depression, schizophrenia, and
bipolar disorder, which sometimes rendered her delusional; and (2) she had

23

STATE v. DUNBAR
Opinion of the Court
not been consistently taking her medications to treat those disorders.12
Such mental health conditions could influence the reliability of the victim's
identification of him as the assailant and the accuracy of all features of her
testimony against him. He asserted that those materials would therefore be
important for effective cross-examination.
Given this legitimate
evidentiary concern and the logic of locating pertinent and reliable
information surrounding R.W.'s mental health condition within her mental
health treatment records,13 I believe Dunbar demonstrated a reasonable
possibility that those records might contain exculpatory information
necessary for him to receive a fair trial.

If5 8
It is unclear how Dunbar could have been more specific about
what portion of R.W.'s mental health records might contain exculpatory
information without already possessing them. By imposing elevated
standards of specificity upon defendants who seek disclosure of
information, we create a nearly insurmountable obstacle to securing
disclosure: we suggest that a defendant must already know the contents of
the requested documents to be entitled to discover those contents. We
thereby risk crippling a defendant's due process right to acquire important
exculpatory information.
As I observed in Kellyivood, the "reasonable possibility"
1T59
standard does not semantically suggest we have erected a difficult barrier
to conduct this form of discovery, and we should resist applying that

12The state did not challenge Dunbar's assertions, that R.W. suffered
from these forms of mental illness or that she received treatment for them
"over fifteen years [in] three different states." Supra f 29.
13On appeal, Dunbar loosely refers to his request as one for "medical
records." But both the trial court record and the content of Dunbar's
appellate briefs make clear that Dunbar has sought only the victim's mental
health records. This distinguishes the instant case from State v. Connor,
where we deemed the request inadequately specific, in part, because the
defendant indiscriminately sought both the medical records and mental
health records of the victim. 215 Ariz. 553, f 24. There, we also emphasized
that those records could not conceivably be used to cross-examine the
deceased victim. Id. ^ 27. Here, by contrast, the state called the victim as a
witness, and the defendant specifically sought the mental health records to
conduct an effective cross-examination of her. See Roper, 172 Ariz. at 240-41
(identifying due process interest in effective cross-examination as basis for
requiring disclosure of victim's records):

24

STATE v. DUNBAR
Opinion of the Court
standard as such. 246 Ariz. 45, 1 24 (Eckerstrom, C.J., dissenting); see also
R.S. v. Thompson, 247 Ariz. 575, If 23 (App. 2019) (acknowledging courts
have applied more stringent standard than "reasonable possibility"). In
assessing these requests, our trial courts should not overlook that a victim s
privacy interests-in all but those portions of their records that are truly
exculpatory-are fully protected by the requirement of in camera review.
Given that protection, the due process right of a criminal defendant to
acquire potentially exculpatory information substantially outweighs the
entitlement of the state or victim to withhold such information from the trial
judge's review.14
Although I would hold that the trial court erred in denying
1f60
Dunbar's motion for disclosure, that error was ultimately irrelevant to the
trial outcome. At trial, Dunbar did not assert that R.W. had misidentified
him. Rather, he testified that he reflexively fired shots in her direction,
without any specific intention to injure her, because he believed she was
attempting to assault him with her car. That claim by Dunbar was rendered
implausible by the other evidence in the case. Dunbar undisputedly fired
numerous shots directly into R.W.'s windshield at close range, several of
which struck R.W. He discharged those shots in two discrete time
'. saw
windows, allowing ample time for deliberation. Two neighbors each
Dunbar fire the last of those shots after hearing the first flurry. Both
testified that they saw Dunbar standing immediately in front of R.W\'s car
and aim directly at her windshield. Neither testified that R.W. 's_ car
. was
ever moving. By contrast, R.W/s testimony conformed to the eyewitness
evidence and was corroborated by the tape of her 9-1-1 call, which recorded
the sounds of the entire shooting incident. Given this weight of evidence,
the trial court's error in denying Dunbar's requests for disclosure was
harmless beyond a reasonable doubt. See State v. Henderson, 210 Ariz. 561,
^ 18 (2005). I therefore concur with the disposition on appeal.

14 In many criminal cases, as here, the primary witness to the
defendant's alleged actions is the alleged victim. In such cases, defense
counsel must explore the reliability and credibility of the accuser in order
to competently prepare for trial and cross-examination.

25

FILED BY CLERK
JAN 23 2019
COURT OF APPEALS
STATE OF ARIZONA
DIVISION TWO

COURT OF APPEALS
DIVISION TWO

ORDER

2 CA-CR 2018-0064
Department A
Pima County
Cause No. CR20152260001
RE: STATE OF ARIZONA v. KEVIN DUNBAR
Pursuant to Motion Request to Self-Representation of Direct Appeal,
ORDERED: Motion Request to Self-Representation of Direct Appeal is DENIED.
DATED: January 23, 2019

Jeffrey P. Handler
Clerk of the Court

SUPREME COURT OF ARIZONA
STATE OF ARIZONA,

Arizona Supreme Court
No. CR-20-0171-PR
Appellee, )
Court of Appeals
Division Two
No. 2 CA-CR 18-0064

v.
KEVIN DUNBAR,
)
Appellant. )
)

Pima County
Superior Court
No. CR20152260-001
FILED: 07/20/2020

ORDER
On May 29,
Review.
for

On July 10,

Leave

"Motion

2020,

of

for

Court

counsel

2020,
to

Appellant Dunbar,

File

Pagination

for Appellant

to

a

Supplemental

Waive

filed

a

Petition

for

Pro Se filed a "Motion
Petition

Restriction

and

for

Review,"

Defects"

and

"Supplemental Petition for Review." Appellant has no right to hybrid
representation and may not file pleadings on his own behalf while he
is represented by counsel.

State v. Dixon,

226 Ariz.

545, 553 51 39

(2011). Therefore,
IT IS ORDERED denying Appellant Dunbar's pro se filings.
IT IS FURTHER ORDERED striking Appellant's July 10,
filings from the record.
DATED this 20th day of July, 2020.

• /S/
JAMES P. BEENE
Duty Justice

2020 pro se

1

1

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA

2

IN AND FOR THE COUNTY OF PIMA

3
4

STATE OF ARIZONA,

5

Plaintiff,

2 CA-CR 2018-0064
CR-20152260

6 vs.
7

KEVIN DUNBAR,

8

Defendant.

9
10
11
12

NOVEMBER 28, 2017

13

JURY TRIAL - DAY ONE

14
15

BEFORE:

THE HONORABLE RICHARD S. FIELDS, JUDGE

16
17
18

REPORTER'S TRANSCRIPT OF PROCEEDINGS

19
20
21
22
23
24

Barbara Smith, RPR
Certified Court Reporter 50249
25 Pima County, Arizona

PIMA COUNTY SUPERIOR COURT

2

1

APPEARANCES

2
3
4

On Behalf of the State:

5 Bruce Chalk
6
7
8

On Behalf of the Defendant:

9 Anne Elsberry
10
11
12
13
1.4
15
16
17 •
18
19
20
21
22
23
24
25

PIMA COUNTY SUPERIOR COURT

3

INDEX

1
2

Page Line

Witness Name
3
4

ROCHELLE WILLIAMS
Direct Examination by Mr. Chalk

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23 .
. 24
25

PIMA COUNTY SUPERIOR COURT

29

22

4

1 '

THE COURT:

CR-201522360, State of

2 Arizona versus Kevin Dunbar.
3
4

MR. CHALK:

Bruck Chalk for the State,

Your Honor.

5

. MS. ELSBERRY:

Good morning, Anne

6 Elsberry for Mr. Dunbar, present, in custody to my
7

right, Your Honor.

8

THE COURT:

And I understand Mr. Dunbar

9 wants to say something?
10

THE DEFENDANT:

Yes, Your Honor,

I have

11

a motion, Ms. Elsberry, it's a motion, you know,

12

there was a'criminal complaint filed and on March 11,

13

2015', and after I got arrested June 3, 2015, and

14

there was an indictment filed June 11, 2015, and on

15

the outcome of the criminal complaint, the only thing

16

superceding -- supervening the criminal complaint is

17

a supervening indictment, and without the supervening

18

indictment I'm still entitled to a preliminary

19 hearing.

As of now, I have not received a

20

supervening indictment, which makes me still

21

entitle3d to a preliminary hearing, and the complaint

22

is not followed by a superveneing indictment, it

23 might be a violation of my due process, my equal
24 protection, Article 2, Section
25

THE COURT':

Okay, Mr. Dunbar, you're now

PIMA COUNTY SUPERIOR COURT

5

1

represented by counsel, so, I'm not going to consider

2

any motions on your behalf.

3

THE DEFENDANT:

4

I'm represented by

counsel?

5

THE COURT:

You're represented by

6 Ms. Elsberry now.
THE DEFENDANT:

7
8

record yet.

9

THE COURT:

I'm sorry?

THE DEFENDANT:. I have not put that on

10
11

I didn't put that on

record yet..
THE COURT:

12

It is on record, your

13

signature was included with the motion that•I granted

14

as of
THE DEFENDANT:

15

Well, I object to that,

16 Your Honor.
17

THE COURT:

Okay, noted.

18

THE DEFENDANT:

All right.

As a matter of fact, I

19 want to go back.
20

THE COURT:

21

THE DEFENDANT:

22

THE COURT:

23
24

I'm sorry?
.1 want to go back.

No, I'm not going to do

that.
THE DEFENDANT:

Well, I object to

25 proceeding, Your Honor, my Ferreta rights are being

PIMA COUNTY SUPERIOR COURT

6

1

surrendered.

2

THE COURT:

3 Mr. Dunbar.

All right, you guys ready for the jury?

4

THE DEFENDANT:

5

MR. CHALK:

He wants to go back to the

THE COURT:

You want to go back to the

6

No, I want to go back.

jail.

7
8

Your motions are over,

jail now?

9

THE DEFENDANT:

I have no place here.

10 My rights are being forfeited.
11
12

THE COURT:
to the jail,

13
14

Well, if you want to go back

I can't stop you.
THE DEFENDANT:

It's not a good idea.

Well, Your Honor, I'm

not being represented by my myself and my rights are

15 being infringed on or surrender, it's like I don't
16 have a say in this process.
17

THE COURT:

18

THE DEFENDANT:

Okay.
Same thing with my

19 witnesses, I don't have a say in the process.
20

asked for witnesses a long time ago.

21

in the process.

22

THE COURT:

23

THE DEFENDANT:

I

I have no say

Okay.
I never got notice of

24

hearings, I‘have not had the process, I'm being

25

overthrown.

PIMA COUNTY SUPERIOR COURT

7

THE COURT:

1

Okay.

Ms. Elsberry, did you

2

want to say anything,at this point about him

3

returning to the jail?
MS. ELSBERRY:- Your Honor, well, I

4

5 prefer that he be here because I think it's always
6

important for somebody to be present for their own

7

trial, it certainly is his right to not be present

8

under the Constitution.

So, I think thatTs a choice

9 he gets to make for himself.
THE COURT:

10

Okay, all right, well, if

11

that's what you want- to do Mr. Dunbar?

12

MS. ELSBERRY:

You want to stay for

13

today? . I believe that Mr. Dunbar does wish to stay

14

here.

15

THE COURT:

Okay, all right.

16

THE DEFENDANT:

I object to the

17 proceedings.
(Whereupon jury voir dire, not being

18

19 designated as part of the appeal pursuant to AZ Rules
20

of Criminal Procedure, Rule 31.8(b) (2) (ii), is herein

21

omitted.)
THE COURT:

22

Okay, let's go back on the

23

record in CR-20152260, State of Arizona versus Kevin

24

Dunbar.

25

the jury panel.

Show the presence of Mr-. Dunbar, counsel and
All right, at this point in time the

PIMA COUNTY SUPERIOR COURT

8

1

clerk will call the names of the folks selected to

2

try the case

3

' THE CLERK:

4

Elisa Frank, Jessica

Jankowski, Sheila Palazzolo, Thomas McNamara, Carole

5. Harrison, Emily Leyva, Alfred Scionti, Candace
6 Gardin, Todd Weber, Angela Dybas, Lona Claybourn,
7 Veronica Escamilla, Samantha Potter and Richard
8

Bishop.

9

THE COURT:

All right, ladies and

10

gentlemen, those of you who were not selected I want

11

to thank you very much in all your efforts in coming

12

down and being willing to serve.

13

time I'm going to excuse you, ask you to check in

14

very briefly on the first floor where you started

15

out.

At this point in

And, once again, thank you very much.

You are

16 excused.
17

And the jury will please stand to be sworn.

18

(Whereupon the jury is sworn.)

19

THE COURT:

Go ahead and have a seat,

20

folks.

21

instructions.

22

to look along or just listen,- your preference.

23

•

24

tell you something about you duties as jurors and

25

give you some instructions.

I'm going to cover some preliminary
You have a copy of those.

You’re free

Now that you've been sworn I will briefly

At the end of the trial

PIMA COUNTY SUPERIOR COURT

9

1

I will give you more detailed instructions and those

2

instructions will control your deliberations..

3
4

It. will be your duty to- decide the facts.
You must decide the facts only from the evidence

5 produced in court.

You must not speculate or guess

6

about any fact.

7

sympathy or prejudice.

8

decide the facts and then apply.those facts to the

9

law that I will give you.

10

your verdict.

You must not be influenced by
You will hear the evidence,

That,is how you will reach

In doing so you must follow that law,

11 whether you agree with it or not.
12

You must not take anything I may say or do

13

during the trial as indicating any opinion about the

14

facts.

15

facts.

You, and you alone, are the judges, of the

16

The State has charged the defendant with

17

attempted first degree murder, aggravated assault

18

with a deadly weapon or dangerous instrument,

19

aggravated assault with serious physical injury, and

20

kidnapping.

The last three charges are alleged as

21 domestic violence offenses.
22

defendant is guilty just because he has been charged

23 with these crimes.
24
25

You must not think the

The defendant has pled not

guilty.
•You’ll decide what the facts are from the

PIMA COUNTY SUPERIOR COURT

10

1

evidence presented here in court.

2

consist of testimony of witnesses, any documents and

3

other things received into evidence as exhibits, and

4

any facts stipulated to by the parties, or which you

5

are instructed to accept.

6

That evidence will

You'll decide the credibility and weight to

7

be given to any evidence presented in the case,

8

whether it be direct or circumstantial evidence.

9

Direct evidence is a physical exhibit or the

10

testimony of a witness who saw, heard, touched,

11

smelled or otherwise actually perceived an event.

12

Circumstantial evidence is proof of a fact in

13 which the existence of another fact may be inferred.
14

You must determine the weight to be given to all the

15

evidence without regard to whether it's direct or

16 circumstantial.
17
18

In deciding the facts of this case you should
consider what testimony to accept and what to reject.

19 You may accept everything a witness says or part of
20

it or none of it.

In evaluating testimony you should

21 use the tests for accuracy and truthfulness that
22 people use in determining matters of importance in
23

everyday life, including such facts as the witness's

24

ability to see or hear or know the things the witness

25

testified to, the quality of the witness's memory,

PIMA COUNTY SUPERIOR COURT

1

1

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA

2

IN AND FOR THE COUNTY OF PIMA

3
4

STATE OF ARIZONA,

5

Plaintiff,

2 CA-CR 2018-0064

6 vs.

CR-20152260

7

KEVIN DUNBAR,

8

Defendant.

9
10
11
12

OCTOBER 24, 2017

13

'

PENDING MOTIONS

14
15

BEFORE:

THE HONORABLE. RICHARD S. FIELDS, JUDGE

16
17
18

REPORTER’S TRANSCRIPT OF PROCEEDINGS

19
20
21
22
23
24

Barbara Smith, RPR
Certified Court Reporter 50249
25 Pima County, Arizona

PIMA COUNTY SUPERIOR COURT

2

APPEARANCES

1
2
3
4

On Behalf of the State:

5 Bruce Chalk
6
7
8

On Behalf of the Defendant:

9 Anne Elsberry
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

PIMA COUNTY SUPERIOR COURT

3

1

THE COURT:

CR-20152260, State of

2 Arizona versus Kevin Dunbar.
3
4

MR. CHALK:

Bruce Chalk for the State,

Your Honor.

5

THE DEFENDANT:

Kevin Dunbar appearing

6 pro-se.
7
8

MS. ELSBERRY:

Anne Elsberry as advisory

counsel, Your Honor.

9

THE COURT:

Okay, and we had reset this

10

hearing so that you'd have an opportunity to discuss

11

various matters.

12

MS. ELSBERRY:

And I think I can give

13

sort of a house cleaning list here.

14

THE COURT:

15

MS. ELSBERRY:

Okay.
Mr. Dunbar and I met on

16

Friday.

17

have me do the trial for him.

18

we need to do beforehand.

19

wanted to make sure that he preserved any appellate

20

issues regarding speedy trial,

21

impression that given the motions that he's filed and

22

the Court's rulings on those, that they will be

23

preserved for appeal on that.

24
25

It's my understanding that he does want to

THE COURT:

There's a few things

The first one is that he

I'm under the

That . certainly would be my

understanding.

• PIMA COUNTY SUPERIOR COURT

4

MS. ELS'BERRY:

1

Right, and just to be

2

clear, the -- Mr. Dunbar had filed two special

3

actions.

4

jurisdiction was denied by-the Court of Appeals on

Those special actions were each,

-

5 Monday and Tuesday of last week on those.
6

My paralegal and I went through and made a

7

spreadsheet of all the motions that Mr. Dunbar had

8

filed so far and all the responses and the Court’s

9

orders on that.

We did find one motion that I don't

10

remember seeing an order from the Court on,'' and that

11

was a motion to preclude in-court ID that was filed

12

by Mr. Dunbar back on March 1, and responded to by

13

the State on March 21 of this year,

14

that's the only’outstanding motion -- although I

15

could be wrong on that.

16

THE COURT:

So, I think

I think that I talked about

17

that under the aegis of the motion to' preclude all

18

in-court ID, and I think I indicated that as to

19

nonvictim witnesses we would have to wait until we

20

got to trial and try to anticipate whether or not

21

there's going to be any in-court ID.

22

you have a different recollection?

23

MR. CHALK:

Mr. Chalk, do

No, the victim herself can

24

make an in-court ID based on what she saw, and the

25

other witnesses who are in the apartment complex,

PIMA COUNTY SUPERIOR COURT

5

1 we're going to deal

with them one at a time as they

2 pop up, and if they

should think that.they can make

3

one, we'll discuss it at that time.

4

THE COURT:

All right,, and try to take

5 that up outside the presence of the -jury?
6

MR.., CHALK:

7

MS. ELSBERRY:

8

Yeah.
Okay.

When I did my list

I hadn't seen the minute entry but now that you

9 mention it, I do remember you saying that.
10

issue about whether

We had an

or not going we were going to

IT depose the doctor and other medical personnel and be
12

able to use that deposition at trial rather than

13

calling them for trial.

14

stipulate to a depo and then using the deposition.

15

So, we're going to have to do an interview and have

Mr. Dunbar does not agree to

16 them subpoenaed for trial.
17

MR. CHALK:

Is he going to waive his

18 presence for the interview so we can.go to Banner
19 versus making them come down to the courthouse?
20

THE COURT:

Where do you anticipate

22

MR. CHALK:

They're all UMC doctors.

23

MS. ELSBERRY:

21 doing it?

24

If Mr. Dunbar gives —

relinquishes pro.-se then it shouldn't be a problem

25 with me going to Banner to do those interviews.

PIMA COUNTY SUPERIOR COURT

6

1

THE COURT:

2

THE DEFENDANT:

Okay.

This is a sticky

3

situation because I left a message for you Friday.

I

4

don't know if you got the voice mail, and I still see

5

that

I still see a lot of issues that haven't been

' 6 addressed that need to be addressed, and can you help
7 me, I want to talk because I want everything on the
8
9

record.
I mean, I understand, you know, from my

10 personal opinion, and I understand we all have
11 personal bias and things we do, and sometimes we
12

favor certain things, favor different things, and I

13

just feel- I.'ve been biased against in this situation

14

here from so many reasons that is hot complete

15 because the case says if the rules is not find the
16

facts or if that

- if it's not a complete issue the

17 motion is never agreed on.
18

And some of the motions I filed, especially

19 when the County Attorney respond, he said something
20

about I filed before with no evidence, no proof that

21

I filed them, and, for instance, when I filed a

22 motion for probable cause, remand for probable cause,
23

the County Attorney's response was that it was

24

untimely because I filed it.

So, you ruled that it

25 was untimely because I filed it.

PIMA COUNTY SUPERIOR COURT

7

1

In my motion-I consent that it was untimely.

2

That wasn’t even the issue.

3

could be weighed by ineffective assistance of

4

counsel, and.the reason why the judge granted me

5

ineffective assistance .of counsel:because he did not

6

file timely motions.

7

to do with timliness of the 12.9, so your ruling that

8

it was untimely, that wasn't the issue in the motion.

9

-The issue was that it

So, my issue was -- had nothing

I also filed a motion for insufficient charge

10

of count three and four, and the County Attorney

11

replied that duplicitous, and that motion had nothing

12

to do with duplicitous.

13

argument he used a Grand Jury documentation or Grand

14

Jury orientation that was not part of mine.

15

know where that Grand Jury orientation, it look old,

And .then in support of his

I don't

16 but it had to do with the 254th.Grand Jury, but you
17

ruled it was okay.

18

Also, the defendant filed a motion for

19

several charges, and when he filed for several

20

charges, the Supreme Court, the Appeal Court, and

21

every other court --

22

THE COURT:

Mr. Dunbar,

I granted that

23 motion.
24
25 bifurcate.

THE DEFENDANT:

No, you granted -- or

So, all the court say that it cannot be

PIMA COUNTY SUPERIOR COURT

8

1 bifurcate unless we agree to stipulate that I was a
2

prohibitted possessor, which I did not agree to

3

stipulate.

4

Under bifurcate, but you grant on the motion to

5

sever, but when I’m really filed that motion to sever

6

you told me it was prejudice.

7

wasn't prejudice and you agreed there wasn't

8

prejudice-.

9 resolved.

So, in his favor you granted the motion.

When he applied it

There's a lot of issues that is not
Not from one hearing other than the

10

suppress hearing I had notice of the hearing, not one

11

hearing.

12

received information, have I seen most of them he

13

never responded, I was unprepared and it's just a

14 mess .

Was I advised, have I got notice, have I

If my hand wasn't cuffed I'd go in a whole

15 bunch more issues that still remain.
16

Also, the fact that I filed a motion, because

17

according to the Legal Defender's Office they were

18

not going to interview or call my witnesses.

19

Sixth Amendment guarantee me the right to compel

20 me

The

I can't find it, call witnesses on my behalf.

21 Well, the Sixth Amendment right is being violated in
22 many ways, which violates my due process to both the
23
24
25

US Constitution and Arizona Constitution.
I filed a motion for a new investigator
February 23, as you know, because the investigator

PIMA COUNTY SUPERIOR COURT

9

1

said he’s not going to investigate and he's not going

2

to the crime scene.

3

will review the motion and make a ruling on the

On March 6 you told me that you

4 motion.
5

I filed a motion to preclude in-court

6

identification, a motion to locate, interview and

7

subpoena witnesses, because the County Attorney -- or

8

the Legal Defender's Office refused to do it, and you

9

told me you're going to rule on the motions, but yet

10

you didn't rule on my motions.

11

execute on the above request and suggest I go through

12

the ccourts, that's to go through the court to get

13

the witnesses.

14

But they fail to

They already told me, he told me he would go

15

to the crime scene, he said, he wasn't allowed to go

16

to the crime scene nor interview certain witnesses.

17

The Sixth Amendment to the US Constitution in Article

18

2, and Section 24 to the Arizona Constitution,

19 provides the defendant have a right would have to
20 process of obtaining witnesses in his favor.
21

I have not been provided a process.

22

versus Colis (ph), State versus Roads.

23

So far

That's State

In the above cases the Court had the

24

jurisdiction to oversee make sure making the

25

defendant receive his Sixth Amendment right of

PIMA COUNTY SUPERIOR COURT

10

1 obtaining his witness.
2

Last week you told me that

you have no say so and no control over.obtaining

3 witnesses and nothing you could do about it.
4
5

So, if you can't go in there and they can't
go in there my rights is just being violated.

6

THE COURT:

That's not what I said.

7 What I said was I don't control the investigators
8

hired by the Public Defender's office.

That's

9 totally a different situation than dealing with
10 whether or not you can subpoena a witness.
11
12

THE DEFENDANT:

You can.

Well, the right to offer

testimony, compel attendance and present evidence is

13 guaranteed by the Sixth Amendment.

So, you say about

14

the witness, it says for rule 15.9 permits the trial

15

court to appoint expert witness for indigent

16 defendant.

Due process requires the appointment of a

17

expert witness for indigent defendant which says

18

testimony is reasonably necessary to present adequate

19 defense.

You can see Jacob versus

and, so, and I

20 present a lot of -- the reason why I want the expert
21 witness, and yet I'm supposed to be able to interview
22

them before I formulate my decision or defense.

I

23 have had no chance to do that at all.
• 24
25

The rule was designed to give the defendant
an opportunity to check the availability of

PIMA COUNTY SUPERIOR COURT

11

1 preclusion of expert witness and to call expert as
2

his own and have the evidence examined by his own

3

independent expert witness.

4

examined.

5

allege a defense if I don't have.the expert witness?

6

I can't allege a defense if I never got my witness

.7
8

How can I check the report?

11

How can I

called, and this has been over a year and a half,
these witnesses and expert witnesses, nothing

9 happened yet.
10

I. can't have it

So, now it's upon me that I've

supposed to have these rights.
And the State doesn't establish by way expert

12

testimony then the defense is entitled as a matter of

13

fundamental fairness used upon expert testimony, US

14

versus Paseo (ph).

15

Now, I had submitted a request for expert

16

testimony in February.

17

said he choose two expert witnesses that he put on

18

his list, one was a medical doctor and one was the

19

gun expert.

20

the same expert witnesses.

21

Mr. Chalk replied back and he

So, I choose to counter by asking for

Now, even if I choose to interview the

22 medical examination, I don't know nothing about
23 medical, so, I can't examine him.

So, my question

24

was to counter his by expert witness or somebody can

25

sub me on those medical.

PIMA COUNTY SUPERIOR COURT

12

1

THE COURT:

2

request for medical witness expert.

Okay, well, I denied the

3

THE DEFENDANT:

4

THE COURT:

5

I understand.

I did leave in the Public

Defender’s hands whether or not they felt it was

6 necessary to hire somebody to deal with the issue of
7 ballistics, otherwise the requests were denied.
8

THE DEFENDANT:

9

MS. ELSBERRY:

I understand.
And, Your Honor, I've

10

identified a potential ballistic expert so that we

11

should be able to determine whether or not we'll need

12

an expert, we'll use an expert --

13

THE COURT:

14

MS. ELSBERRY:

15

THE COURT:

16

THE DEFENDANT:

17

Okay.
— shortly.

All right.
And, also, when I

appeared in court on many occasions I felt I was

18 wronged, because a lot of times, I told you on
19 December 12 when I came to court I told you I wasn't
20 prepared.

I haven't had notice.

21 was going to be a hearing.
22 me.

You sent me back.

Nothing told me it

I had no legal work with

I'm coming back with four

23 boxes all scattered of legal work that I was not
24 prepared to do because I had no notice.
25

THE COURT:

You had notice of the

PIMA COUNTY SUPERIOR COURT

13

1 hearing.
2

Mr. Dunbar, we’ve been over this, and,

frankly, I’ve got other matters on my calendar.

3

THE DEFENDANT:

4 me

all right, fine.

5

THE COURT:

6

THE DEFENDANT:

7

All right, so
I wasn't done, but .1

understand.

8
9

So, you’re trying tell

THE COURT: .All right, so, we are set
for trial.

Any reason why we shouldn’t affirm that

10

trial date today and show Ms. Elsberry as lead

11

counsel?

12

were identified that need to be interviewed by the

Okay, so ordered.

Any other witnesses that

13 defense?
14
15

MS. ELSBERRY:

Your Honor, I put

together a 15.2 notice for -- that hasn't been filed

16 with the Court.

We're going to disclose, I think,

17

three potential witnesses to the State, and, so, if

18

the State is inclined they’ll need to interview those

19

three folks.■

20

THE COURT:

Okay.

21

THE DEFENDANT:

Your Honor, for me, I
I don't

22

see the interviews that Ms. Crawford did.

23

agree with the interviews, I don't consent to those

24

interviews and there's more witnesses other than that

25

that need to be interviewed that I would like to

PIMA COUNTY SUPERIOR COURT

14

1

call, but, like I said, I don't have the opportunity

2

to review them. ■ I don't know if I can call them.

3

From which she told me that she interviewed, I don't

4

see the interviews from the witnesses.

5

consent at all.'

6

THE COURT:

I do not

Okay, well, those are

7 matters that you'll need to talk with Ms. Elsberry
8

about.

She's now lead counsel.

9

THE DEFENDANT:

10

THE COURT:

She is not lead counsel.

She is.

I assure you,

11 Mr. Dunbar, that she is.
12
13

THE DEFENDANT:

No, I do not render my

rights.

14

THE COURT:

Well, two times you've told

15 me differently.
16 •
17

THE DEFENDANT:

I didn't render my

rights.

18

THE COURT:

19

THE DEFENDANT:

Okay.
I did not render my

20

rights, Your Honor, for the record.

21

THE COURT:

22

THE DEFENDANT:

23
24
25

Okay.
It has to be clear on

the record.
THE COURT:

We are about a month away

from trial, Mr. Dunbar, and you have always agreed

PIMA COUNTY SUPERIOR COURT

15

1 that when it comes to trial that you need to have
2

somebody represent you, have you not?
THE DEFENDANT:;

3

No, I

if I .can

My issues were not addressed, and

4

address my issues.

5

certain witness I will call that she won't.

6 not going to render my rights.

That's why I called

7

her Monday and Friday and let her know that.

8

should check her voice mail.
THE COURT:

9
10

She

Okay, let me see counsel in

chambers.
(Whereupon the Court recesses.)

11

THE COURT:

12
13

So, I'm

Mr. Dunbar, your final

answer?

14

THE DEFENDANT:

15

THE COURT:

I'm proceeding pro-se.

All right.

I'm not going to

16 do this dance with you again so you're going to have
17

to live with your decision.

18

THE DEFENDANT:

19

THE COURT:

20

date.

21

today?

22

.Yeah.

All right, we have a trial

Anything else that we need to take care of

MR. CHALK:

No, I'll -- given his

23 position I.'11 contact the Court about arranging for
24
25

interviews here.
THE COURT:. Okay.

PIMA COUNTY SUPERIOR COURT

16

1

THE DEFENDANT:

And for the record,

2 Ms. Crawford conducted I don't approve of.
3
4

THE COURT:

I understand, that’s about

the fourth time you've made that record.

but the

5 problem is we can't-do a rule 32 before the trial is
6 over and that's an issue for a rule 32.
7
8

THE DEFENDANT:

And in addition to

witnesses I requested, trying to interview those, I

9 want to interview them before I formulate my defense.
10

For the record I did not interview my witnesses

11

requested.

12
13

THE COURT:

I haven't heard any

requests.

14

THE DEFENDANT:

15

THE COURT:

Excuse me?

I haven't heard any

16 requests.
17

THE DEFENDANT:

Well, last week you said

18

that you have no control over that, but I have a

19

request for locate, interview and subpoena witnesses,

20 because which I have nothing to do with it that I had
21

to go through the court.

22

February, and to this date nothing.

23

THE COURT:

24

So, I put a motion in in

If you want to request

subpoenas that's something entirely different,

25 Mr. Dunbar.

PIMA COUNTY SUPERIOR COURT

1
1

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA

2

IN AND FOR THE COUNTY OF PIMA

3
4

STATE OF ARIZONA,

5

Plaintiff,

2 CA-CR 2018-0064

6

vs.

CR-201522 60

7

KEVIN DUNBAR,

8

Defendant.

9
10

•

11
12

FEBRUARY 5, 2018

13

SENTENCING HEARING

14
15

BEFORE:

THE HONORABLE RICHARD S. FIELDS, JUDGE

16
17
18

REPORTER’S TRANSCRIPT OF PROCEEDINGS

19
20
21
22
23
24
25

Barbara Smith, RPR
Certified Court Reporter 50249
Pima County, Arizona

PIMA COUNTY SUPERIOR COURT

2
1

APPEARANCES

2
3
4

On Behalf of the State:

5

Bruce Chalk

6
7
8

On Behalf of the Defendant:.

9

Anne Elseberry and Eric Erickson

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

PIMA' COUNTY SUPERIOR COURT

3
1
2
3
4
5
6
J

8
9

THE COURT:

CR-20152260, State of

Arizona versus Kevin Dunbar.
MR. CHALK:

Bruce Chalk for the State.

Victim is present, Your Honor.
MS. ELSBERRY:

Anne Elsberry for

Mr. Dunbar, who is present, in custody, Your Honor.
MR. ERICKSON:

Eric Erickson, co-counsel

with Ms. Elsberry for Mr. Dunbar.
THE COURT:

All right, counsel, be

10

prepared, I've read the sentencing memorandum filed

11

by Ms. Elsberry on Mr. Dunbar's behalf, and this

12

morning the State's position on that.

13

engage in some discussion of that, so, that's coming.

14

And this is the time set sentencing.

15

I do want to

Mr. Dunbar, your full name, please?

16

THE DEFENDANT:

17

THE COURT:

18

THE DEFENDANT:

19

THE COURT:

Kevin Dunbar.

And date of birth?
3/21/66.

All right.

In a previous

20

jury trial there a was a determination of guilt

21

relative to count one, attempted first degree murder,

22

a nondangerous, repetitive offense with two or more

23

priors, class two, this occurred March 10, 2005,

24

violation of 13-1105; count two, a count of

25

prohibited possessor, a repetitive offense, class

PIMA COUNTY-SUPERIOR COURT

4

1

four, same date; count three, aggravated assault,

2

deadly weapon/dangerous instrument, a class three,

3

repetitive offense, same date; and, count five,

4

kidnapping, domestic violence, repetitive offense,

5

also a class three, 13-1304.

■ 6

I’ve reviewed numerous letters forwarded to

7

me on behalf of Mr. Dunbar, and the victim’s letter,

8

this morning.

9

ask for the State's input, but I will indicate the

I have 978 days credit.

I'm going to

10

Court's initial directions in this case, which were

11

to impose a presumptive term on the attempted first

12

degree murder, with a consecutive sentence' on the

13

prohibited possessor count, striving to reach about a

14

25 year sentence.

15

My attention was called to the Careon

16

decision.

17

prohibited possessor, I think, falls outside the

18

Careon analysis, or that the holding in Careon (ph)

19

is incorrect.

20

In the Court's estimation in this case the

In this case, Mr. Dunbar indicated that he

21

was aware of the fact that the firearm had been left

22

in his vehicle by a friend.

23

throughout the day.

24

well before deciding to use it by attempting to take

25

Ms. Williams' life,.'and thereby I think establishing

He carried that weapon

He possessed and controlled it

PIMA COUNTY SUPERIOR COURT

5
1

the possessing a deadly weapon is .a separate and

2

distinct act from using it to attempt to use it to

3

take somebody's life, and that's- why I believe

4

consecutive sentencing on that count is appropriate.

5

The State's memorandum indicates correctly

6

that the jury did find an aggravating factor under

7

13-701(D)(2), that being the use or possession of a

8

deadly weapon inherent in its verdicts.

9

are a number of other aggravating factors available

10

And there

and present and overall outweighing in every case any

11. mitigation that's been submitted, and that includes
12

lying in wait, the prior overall criminal history,

13

and the emotional impact on the victim.

14

The Court is also aware that the aggravated

15

assault count could reflect the way the shooting was

16

carried out, which was

17

Mr. Dunbar first fired at one location outside the

18

vehicle and then changed.positions, went to the front

19

and fired from there.

20

found that to be a separate act from the attempted

21

first degree murder, but I don't feel comfortable

22

relying on that.

23
24

the evidence showed that

Certainly the.jury could have

The memorandum that you filed, Mr. Chalk,
indicates that the State believes I can set sentence

25 . consecutively on the kidnapping count, and I'd like

PIMA COUNTY-SUPERIOR COURT

6
1

you to address that issue if you would, and I'll hear

2

from the State.

3

•

MR. CHALK:

■
Actually, starting off with

4

just the money stuff,' I have a total to victim

5

witness compensation of 3784.57, that was the latest

6

receipt I got.'

7

11 of this year, a bill from Mercy Gilbert Medical

8

Center, and why they sent the Pima County Attorney's

9

Office a medical bill, I don't know, but it's related

We actually just received, on January

10

to Ms. Williams and the second surgery she had to

11

get to remove the other bullet, I believe.

12

So, we disclosed it

we disclosed it

13

quickly but we haven't had a chance to investigate it

14

in terms of — they have us down here as being

15

responsible for 1196.66 and then Aetna paid 936.54,

16

and they have a total bill on here of $12,248 from

17

Mercy Gilbert, but with regard to this particular

18

bill, I'd like some time, in terms of restitution, to

19

figure out what they expect out of this.

20

numbers that I have are firm, the 3784.57 and the

21

extradition of 3744.

22

But the two

I believe the case I cited in my memorandum

23

talks about consecutive -- kidnapping can be

24

consecutive.

25

additional harm that can arise-from the kidnapping -

Essentially, what it says is there is

PIMA COUNTY SUPERIOR COURT

7
1

or fr.om the other offense.

2

choke someone, I’m committing a ;kidnapping, but it is

3

completely what I’m doing, is choking her.

4

•

So, if I walk up and

In this case the kidnapping occurs when the

5

car pulls in front and blocks her in.

6

didn't have to result in a shooting, and the shooting

7

didn't have to result from the kidnapping.

8

left his car in the other lot where he was and walked

9

over when she backed in, there would have been no

10

kidnapping.

11

a kidnapping at all.

12

separately.

Now, that

If he

Shooting her -- there wouldn't have been
You can complete each offense

So, in that circumstance the kidnapping is a

13
14

distinct and separate harm from the, aggravated

15

assault and attempted murder, and I believe that that

16

satisfies the case that I cited.
I did read the case the Court was mentioning

17
18

the potential for a consecutive on the attempted

19

murder/aggravated assault.

20

think the perpetrator walked the victim to the door,

21

stabbed her in the back a few times, and then after

22

she didn't do what he wanted her to do, then turned

23

her around and stabbed her in the heart and then

24

found

25

that was adequate to satisfy consecutive sentences on

In that particular case I

or stabbed her in the chest, and they found

PIMA COUNTY SUPERIOR COURT

8
1

the attempted murder and on the aggravated assault.

2

The Court's1 laid out that it's not

3

comfortable using that as a factor in consecutive

4

sentencing.

5

I believe, certainly, the kidnapping allows — the

6

kidnapping charge in this count is separate and

7

distinct from the aggravated assault, attempted

8

murder, and allows for consecutive sentences.

9

If that's so, then that's the case, but

My complete desire in this case is that he

10

spend as long in prison as he can.

11

a threat forever to the victim.

12

lifetime of criminality, and nothing about anything

13

he's mentioned shows remorse, shows regret.

14

nothing here that doesn't warrant an aggravated

15

sentence in every respect.

16

practically planned out -- it was an assassination

17

attempt, that's what the attempted murder is.

18

Premeditated, he walked up with the gun to shoot her

19

and kill her, and that's what the jury found.

20

while I realize those are elements of the offense,

21

there's plenty of stuff that the Court has noted,

22

that warrants an’aggravated sentence here.

23

He is going to be

He's reflected a

There is

I mean, this was

And

You have the victim's letter and you saw her

24

testify and about the impact that this has had on

25

her, the changes she had to make in her entire life

PIMA COUNTY SUPERIOR COURT

9
1
2

as a result of this offense.
So, the State would ask for the aggravated

3

sentence on the attempted murder, aggravated assault,

4

aggravated sentence on the prohibited possessor, the

5

the aggravated sentence on the kidnapping, and the

6

attempted murder— the attempted murder and

7

aggravated assault consecutive, and everything else

8

consecutive.

9
10

Thank you.
THE COURT:

All right.

MS. ELSBERRY:

Ms. Elsberry?

So, I'm going to start

11

back towards the beginning here.

12

whether or not Mr. Dunbar- is a category two, category

13

three or category one. offender.

14

The first thing is

Although Pretrial Services states that he is

15

a category three offender, the pretrial statement

16

writer obviously has that wrong.

17

object to the presentence report and ask that it be

18

amended to state correctly which category he is in.

19

I think the State concedes the fact that he's not a

20

category three offender.

21

We're going to

When we had our priors trial, Judge, you

22

found that there were three prior historical

23

felonies, and those were the two weapons charges out

24

of New York and then the Georgia federal conviction,

25

for basically lying to law enforcement at that time.

PIMA COUNTY SUPERIOR COURT

10
1

However

2

time that Mr. Dunbar would therefore be a category

3

two offender because of the three prior historicals.

4

and I think we were all assuming at that

However, on re-looking at ARS 13-1015.22, and

5

I believe it's (F), those two gun charges out of New

6

York may not be considered prior historical

7

convictions in Arizona, because what the Arizona

8

statute says is that for convictions that don't

9

involve the actual display or use of a firearm,

10

they — it has to be what would be considered a

11

felony in Arizona.

12

And as I note in my memo, it is unclear

13

whether those two charges in New York would be

14

considered felonies in Arizona, because it is a

15

felony misuse of a weapon in New York just to have a

16

weapon during any crime, whether or not it’s a felony

17

or a misdemeanor.

18

more than three weapons with you.

19

remember when we were looking at the priors before,

20

one of the convictions in that pen pack does state

21

specifically which subsection of the New York statute

22

that Mr. Dunbar had been alleged to have broken, and

23

that was -- had a weapon with him during a felony --

24

during the commission of a crime,

25

whether it was a felony or a misdemeanor.

It is illegal in New York to have
And if you

It doesn't say

PIMA COUNTY SUPERIOR COURT

It just

11
1

says that he had. had a felony.
The other prior in.the. pen pack doesn’t even

2

It just says that he was in violation

3

give us that.

4

of the New York statute, not which subsection of the

5

statute, and so I don't believe the State has proven

6

that those two weapons priors out of New York were

7

felonies in Arizona, and therefore should be

8

considered prior historical felonies.
If we don’t

9

if those two aren’t what would

10

be considered felonies in Arizona,, they can't be

11

prior historical felonies, we don't get to that magic

12

number of three prior historical felonies, and

13

therefore Mr. Dunbar would not be a category two

14

offender, he would be a category one offender here.
Once the Court has decided which category he

15

while it doesn't matter for the aggravated

16

is in,

17

assault because, of course, that’s being -- would be

18

sentenced under the first line of the dangerous

19

nature crimes, we get to whether or not these should

20

be concurrent.

21

the attempted murder will be concurrent sentences.

22

They are the same crime committed -- described in two

23

separate ways.

24
25

Of course, the aggravated assault and

Your Honor, I believe that the kidnapping
likewise should be a concurrent sentence.

PIMA COUNTY. SUPERIOR COURT

If you'

12
1

remember back to the' closing arguments of our trial

2

Hr.

3

he pulled oufthe gun.

4

about whether or'not the' victim could have left.

5

looked at a lot of pictures of where the car was.

6

When we got to closing the State argued it doesn't

7

matter whether she could have left or not, the minute

• 8
9
10

-- it was argued that the kidnapping began when
We had a lot of discussion
We

he pulls out the gun she is being kidnapped, she's
being prevented from leaving, and that's the kidnap
in this'case.

11

If that's the kidnap in the case then that is

12

part and parcel with the aggravated assault and the

13

attempted murder, and, therefore, under the Gordon

14

Test these should be run concurrently,

15

the first two prongs Of the test have been met.

16

look at the ultimate crime' in this case, the

17

attempted murder, the aggravated assault and the

18

kidnapping are part and parcel of those.

19

We know that
If

And then the questions only becomes, did the

20

kidnapping create further additional harm to the

21

victim.

22

accomplish those two higher level crimes in this

23

case, and it's our position that the sentencing for

24

those -- for the kidnap should, therefore, be

25'

concurrent.

In this case, the kidnap was in order to

PIMA COUNTY SUPERIOR COURT

13
1

As far as the weapons misconduct, the

2

prohibited possessor charge, I still believe that

3

Careon is good law.

4

that he wouldn't

5

couldn't have the aggravated assault with the deadly

6

weapon without the prohibited possessor, except for

7

that these are all. the same.

8

particularly, offered or any.allegation made by the

9

State that Mr. Dunbar had this gun prior to this

I think that Careon tells us

-- you couldn't.have -- you

There was.no evidence,

10

crime, that there was any sort of other attempt to

11

possess a weapon other than this particular crime.
THE COURT:

12
13

Except for his own

testimony.
MS. ELSBERRY:

14

Agreed, Your Honor.

it's not that Mr. Dunbar went out and

15

not that

16

obtained the gun.

17

There was a gun in his vehicle.

We have no evidence toward that.

18

THE COURT:

19

MS. ELSBERRY:

20

four of the counts be run concurrently.

21

It' s

And he knew it.
But we would ask that all

And, finally, to deal with the aggravating

22

factors, the dangerous nature certainly as to the

23

aggravated assault is part of the ultimate crime,

24

being sentenced, I believe, under that sentencing

25

structure, I believe as well, that that is part and

PIMA COUNTY SUPERIOR COURT

14
1

parcel with: the attempted murder here.

2

believe that those could be used as aggravating

3

factors in this particular case.

4

Honor —

5

THE COURT:

6

MS. ELSBERRY:

7
' 8
9
10

I don't

It's only, Your

As to what counts?
As to the attempted

murder and as to the aggravated assault.
THE COURT:

What's your reason as to the

attempted murder?
MS. ELSBERRY:

Well, Your Honor,'the

11

dangerous nature'is that he used a weapon, that’s

12

what gets us to dangerous nature here.

13
14

THE COURT:

But the dangerous nature is

only applicable to count three.

15

MS. ELSBERRY:

16

THE COURT:

I'm sorry, Your Honor?

The dangerous nature is only

17

an element, let's say, in count three,

18

words, you can carry out attempted first degree

19

murder in a lot of ways.

20.

MS. ELSBERRY:

In other

That is correct, but this

21

particular attempted murder is carried out with a

22

weapon, and so, that it is subsumed within that

23

particular count.

24
25

I believe, Your Honor, as I've argued, that
only the maximum sentences are appropriate -- are

PIMA COUNTY SUPERIOR COURT

15

1

allowable for Mr. Dunbar.

2

says that the State has.to have alleged aggravating

3

factors.

4

alleged and proved were the dangerous nature and the

5

DV.

6

the victim.

7

The State

the statute

The only aggravating factors the State

They didn’t allege and they didn’t prove harm to

If you look at 701 it says that- the State has

8

to -- or any of the-catchall aggravators, the State

9

has to have alleged them,

10
11

anything else as an aggravating factor.

THE COURT:

Okay, did I just hear you

just say that you felt the maximum was the --

14
15

They only

..alleged those two things as aggravating factors.

12
13

The State hasn’t alleged

MS. ELSBERRY:

If the Court finds that

the domestic violence is an aggravator, then the

16 . maximum is available, because you have to -- to be
17

able to get to the maximum you -have to have one

18

aggravator.

19

have to have two aggravators.

20

alleged two, proven two, but that dangerous nature

21

does not apply to the attempted murder or the

22

aggravated assault.

23

In order to get to the aggravated, you
So, the State has only

Mr. Dunbar's belief is that the dangerous

24

nature and the domestic violence were not alleged as

25

aggravators but rather were .alleged as elements of

PIMA COUNTY SUPERIOR COURT

16
1

the crime.

2

for him.

3

distinction but I certainly want to preserve that

4

issue for him.

5
6

I

I want to preserve that as an issue

I'm not sure if I understand the

THE COURT:

Okay, but, of course, the

jury'did find those.

7

MS. ELSBERRY:

The jury did find those,

8

Your Honor, they were alleged and the jury did find

9

them.

10
11

And, finally, Mr. Dunbar wanted to make clear
for me to make clear that in addition to the

12

errors that the presentence report writer made

13

regarding which category he should be in, the

14

presentence report writer made an ultimate conclusion

15

regarding Mr. Dunbar's dangerousness to future

16

intimate partners.

17

nothing to back up that allegation, that he was not

18

interviewed regarding the crime itself, only —

19

because of, his position for appeal, and, so, he'd

20

like to have that sentence stricken.

21

THE COURT:

His concern is, is that there is

Okay, I want to give you the

22

last word, but in the meantime, Bruce, would you

23

address the category two, category three issue?

24
25

MR. CHALK:

Well, one of the issues I

have with that is that I didn't do the priors trial,

PIMA COUNTY SUPERIOR COURT

17

1

so, I relied on Ms. Schwartz to inform me of what was

2

happening.

3

One of the issues I have in the language I’m

4

hearing, and as we’re discussing about this, we say

5

three prior historical felony convictions, and I'm

6

concerned whether or not we're talking about — and

7

the sentencing minute entry reflects three prior.

8

historical convictions, but when I talked to

9

Ms. Schwartz she said there's been -- you guys talked

10

at the bench and you agreed that he was category two,

11

and that it was the three prior felony convictions,

12

which makes the third one a historical prior felony

13

conviction, was what you guys had agreed to at the

14

priors trial.

15

So, I mean, there really aren't three

16

historical prior felony convictions,

17

was three, what I'll call nonhistorical felony

18

convictions, because I'm not sure about the fourth

19

one that was ten years ago, but for the argument

20

we'll say three nonhistorical prior convictions,

21

which means that the most recent one becomes a

22

historical prior conviction, according to the cases.

23

What was proven

So, then he really is a category two

24

offender, rather than a category three,

25

his time in custody for like in the New York cases,

PIMA COUNTY SUPERIOR COURT

If I recall

18
1

doesn’t equate to however much time, it wasn’t ten or

2

15 or 20 years or anything.

3

eliminate that time for those, so, they're

4

non-historicals, and when you do the three equals

5

one, it is the most recent in time becomes the

6

historical prior.felony conviction.

7

MS. ELSBERRY:

So, there's nothing to

And I'd agree that when

8

Ms. Schwartz was here that that's what we

9

structure that we' were looking under.

the ‘

However, at

10

that time we didn't discuss the fact that those two

11

gun convictions out of New York may not be considered

12

felonies for.Arizona's purposes under 105.22(F).

13

: THE COURT:

Arguably.

14

MS. ELSBERRY:

15

THE COURT:

Okay.

16

MR. CHALK:

Just so we're all clear on

Arguably.

17

the record, my.understanding of the range, he's

18

looking at four and a half to 23 on the class two's,

19

three and a quarter to 16 and a quarter on the class

20

three's if it was a nondangerous offense, and a class

21

four, two and quarter to seven and a half, the

22

prohibited and on the aggravated assault I'm choosing

23

the dangerous, which would be 5, 7 and a half, 15,

24

and those priors don't matter because none of them

25

are dangerous.

PIMA COUNTY SUPERIOR COURT

20
1

argument under 105.22(F) just so we can make a

2

record?

3

THE COURT:

4

MS. ELSBERRY:

5

Okay, so, Your Honor, do

you mind if I use your book here? •

6

THE COURT:

Go ahead.

You’re talking

7

about the, not knowing if they're felonies back

8

there?

9

MS. ELSBERRY:-

10
.

Spell out your 105 argument.

11

THE COURT:

Exactly, Your Honor.

I'm quite confident they

are .

12

MS . ELSBERRY:

Because what the

what

13

the

14

outside the jurisdiction of this state that involves

15

the discharge, use or threatening exhibition of a

16-

deadly weapon or dangerous instrument for the

17

intentional or knowing infliction of death or serious

18

physical injury that was punishable by that

19

jurisdiction as a felony can be considered a prior

20

historical felony here.

105.22(F) states is that any offense committed

21

However, and that's my own however, a person

22

who has been convicted of a felony weapons possession

23

violation in any court outside the jurisdiction of

24

this state that would not be punishable as a felony

25

under the laws of the state is not subject to this

PIMA COUNTY SUPERIOR COURT

19
1

THE COURT:

Okay.

2

MR. CHALK:

And the argument about the

3

dangerous nature doesn't apply to the attempted first

4

degree I disagree with.

5

nature as an aggravator certainly applies to the

6

attempted first degree•murder.

7

parcel of the element of the offense.

It clearly the dangerous

It's not part and

tHE COURT:

It's not an essential

10

MR. CHALK:

Right.

11

MS. ELSBERRY:

'8
9

element.

And, Your Honor, just

12

that as an aggravator for count one was never.

13

alleged.

14

an aggravator, it'certainly wasn't alleged as an

15

aggravator 20 days prior to trial as evidence as

16

required by rule 13.5.

17

It wasn't alleged -- it was not alleged as

• MR.’ CHALK:

Actually, there's cases that

18

talk about aggravators, and there's been no decision

19

ever made whether or not you have to file a written

20

notice of -- a written notice of aggravators.

21

THE COURT:

Okay, so, I'm going to

22

adjust a new category two.

23

MS. ELSBERRY:

Your Honor, when

could

24

you, either in your statement today or later on in a

25

finding, let us know why you are rejecting the

PIMA COUNTY SUPERIOR COURT

21
1

paragraph, and this paragraph is for the prior

'2

historical felonies.

3

•

And we.have nothing-that shows that those two

4

charges in New York would also be. considered felonies

5

here.

6

weapon, in one of them.we know that it was any crime,

7

we don't know whether it was a felony or a

8

misdemeanor, and in the other one we don't know which

9

subsection he was charged with.

All we - know is .that he was in possession of a

And, frankly, to be

10

charged with possession of a weapon in New York

11

you -- there's all sorts of things, there's -- I want

12

to say 25, there's about 25 different ways that

13

you -- or 10 different ways that you can be charged

14

with that, such as possessing a large capacity and

15

ammunition feeding device, is a felony weapons

16

offense in New York.

Having your three weapons in

17 . your vehicle at one time is .a felony weapons offense
18

in New York.

19

THE COURT:

Do we have the exhibits up

21

THE CLERK:

No.

22

THE COURT:

While she's working on that,

20

here?

23

let me indicate to counsel as to mitigation I have

• 24

considered PTSD, mental health and family support.

25

do find them,, but I find that they have low

PIMA COUNTY SUPERIOR COURT

I

22
1

mitigation value. - The education training and

2

accomplishments between his priors and this offense

3

are not mitigating, because they almost aggravate

4

under these circumstances.

5

chance, had been Working with people on altering

6

their behavior based on his training and education.

7

That counters any potential for rehabilitation or

8

credit for mitigation.

9

Mr. Dunbar,' if you're at that point, Anne.

And I'll hear from

10

MS. ELSBERRY:

11

THE DEFENDANT:

12

THE COURT:

• 13

Mr. Dunbar had a second

I am, Your Honor.
Good morning Your Honor.

Good morning.

THE DEFENDANT:

I first want to say I

14

only pray that if I have a opportunity to apologize

15

to the victim, so I do want to tell the victim that I

16

truly apologize for what she's going through, and I

17

hope she finds in her heart, and God finds a way for

18

to forgive me and to have a good life.

19

Secondly, I want to apologize to the Court

20

and everybody in the Court.

21

downplay the situation or undermine it, because

22

nobody deserves to have their life to be compromised,

23

and as a God fearing guy, and I believe in God, I

24

still mind making bad decisions, and I just wish I

25

could take the decision and turn it into a positive.

I'm not trying to

PIMA COUNTY SUPERIOR COURT

25
1

aware of the case law.

2

Counsel want to come up and look at the exhibits?

3

For the record, the sentence for -the criminal

4

possession weapon third was two and a half to five

5

years, from a look at the Exhibit 3.

6

offense for criminal possession of weapon third was

7

three and a half to 7 years.

8

counsel now.

9

Let's look at the exhibits.

MS. ELSBERRY:

The other

I'll show that to

And, Your Honor, right

10

there, so, this shows, if I read this correctly, it

11

shows he was convicted under New York statute 265.02.

12

And I think that's 1 on that one.

13

THE COURT:

Right.

14

MS. ELSBERRY:

The other one just says

15

265.02, but it doesn't give a subsection.

16

York statute, 265.02.1, if such person commits the

17

crime of criminal possession of a weapon in the

18

fourth degree as defined in subsection, 1 through 5,

19

if they've been convicted of any crime, or, and then

20

5(1), possesses a firearm and has previously been

21

convicted of a felony or a class A misdemeanor.

22
23
24
• 25

THE COURT:

The New

At that time he had been

convicted of a federal offense.
MS. ELSBERRY:
was the last offense.

No, the federal offense

He had the 1991 New York

PIMA COUNTY SUPERIOR COURT

26
1

offense, 1998 New York offense.

2

didn't happen until 2007.

3

conviction yet.

4
5

MR. CHALK:

The federal offense

So, he hadn’t had that

He was alleged to have --

the prior is the felony attempt to conspiracy.

' 6

THE COURT:

Okay, all right.

7

MR. CHALK:

That was the previous

THE COURT:

But the subsection is shown

8

conviction.

9
10

on that document, and it's the subsection .1.

11

MR. CHALK:

201, yeah.

12

THE COURT:

All right, as to count two,

13

the charge of prohibited possessor alleged to have

14

occurred March 10, 2015, the same aggravators apply,

15

and the Court will sentence you to six years in the

16

Arizona State Prison notwithstanding the holding in

17

Careon, I'm going to order that that run consecutive

18

to the sentence in count one.

19

As to count three, aggravated assault, deadly

20

weapon, dangerous instrument, repetitive,

21

dangerous -- actually, that's dangerous,

22

nonrepetitive, I will sentence you to 14 years in the

23

Arizona State Prison, that will run concurrently with

24

count one.

25

As to count five, same aggravators apply,

PIMA COUNTY SUPERIOR COURT

27
1

obviously, outweighing the mitigation, I’11 .sentence

2

you to 18.5 years in the Arizona State Prison, and I

3

will order that that run consecutive to count one.
I’ll order that you.pay the extradition fee

4

I think it’s the

5

of $3744, restitution to the

6

victim compensation fund, $3784.57.

7

State an additional 45 days relative to the new bill.

8

There are two $50 assessments required under

9

the domestic violence statutes, and I'll impose those

I will allow the

as.well as the previously assessed attorneys fees.

10

THE DEFENDANT:

11
12

Excuse me, Your Honor?

Your Honor -THE COURT:

13

Hang on, Mr. Dunbar,

I will

14

direct the PSR will reflect the category two range

15

for the purposes of Department of Correction’s use.

16

Okay, counsel, did you have something before I hear

17

from Mr. Dunbar?
MS. ELSBERRY:

18

Your Honor, I just wanted

19

to make sure I was correct on the record that you

20

made the finding that the kidnapping charge began

21

before the attempted murder.
THE COURT:

22

Right, our fact situation

23

indicates that he pinned her car in before he even

24

retrieved the weapon that was used to begin shooting.

25

.

THE DEFENDANT:

Your Honor, kidnapping

PIMA COUNTY SUPERIOR COURT

28
1

is a continuous offense until you let the person go.

2
3

THE COURT:

I'm sorry, I can't hear you,

Mr. Dunbar.

4

THE DEFENDANT:

The kidnapping is a

5

continuing offense until you let the person go, and I

6

believe that's State versus Williams.

7

happened first, everything follows through as one

8

offense.

9

becomes separate, but kidnapping, it says -- I mean,

If the kidnap

If the weapon was pulled first, then it

10

it's a lot of 2017 cases that kidnapping is a

11

continuing offense, one continuing offense, until the

12

victim is relieved of that holding.

13

THE COURT:

Okay, well, I'm finding that

14

there were separate acts committed here and

15

sentencing accordingly.

16
17

THE DEFENDANT:

So, it was kidnap, let

her go, and then another kidnap?

18

THE COURT:

All right, Mr. Dunbar, I

19

will advise you that you've got a right to file an

20

appeal.

21

THE DEFENDANT:

22

THE COURT:

23

an attorney represent you for that,

24

afford one we'll appoint you one.

25

afford transcripts we'll provide you with those at no

I know that anyways.

You have the right to have
If you can't
If you can't

PIMA COUNTY SUPERIOR COURT

29
1

cost.

You have to do it within 20.days or you lose

2

that right.

3

THE DEFENDANT:

4

THE COURT:

5

THE DEFENDANT: . One more question?

6

Okay.

All. right.

you clarify the aggravating factors?

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

PIMA COUNTY. SUPERIOR COURT

Can

30

1

REPORTER’S CERTIFICATE

2
3

STATE OF ARIZONA)

4

COUNTY OF PIMA

ss
5
6

I, Barbara Smith, do hereby certify that as an

7

Official Court Reporter of Pima County, Arizona, I

8

was present at the hearing of the foregoing entitled

9

case; that while there I took down in shorthand all

10

the oral testimony adduced and the proceedings had;

11

that I have transcribed such shorthand into

12

typewriting, and that the foregoing typewritten

13

matter contains a full, true and correct transcript

14

of my shorthand notes so taken by me as aforesaid.

15
16
• 17
18
19

4

rv\

Barbara Smith, OCR, 50249

20
21
22
23
24
25

PIMA COUNTY SUPERIOR COURT

S

V

